No. 20-_______________
______________________________________________________
SUP RE ME COURT OF TH E UNITE D STATE S
______________________________________________________
E u gen e Slon e,
Petition er,
vs.
Un it ed St a t es of Am er ica ,
R espon d en t,
______________________________________________________
On P et it ion for a Wr it of Cer t ior a r i t o
t h e Un it ed St a t es Cou r t of Appea ls
for t h e Sixt h Cir cu it
______________________________________________________
P E TITION F OR A WRIT OF CE RTIORARI
______________________________________________________
NE D P ILLE RSDORF
ATTORNE Y AT LAW
124 WE ST COURT STRE E T
P RE STONSBURG, KE NTUCKY 41653
P H : (606) 886-6090
F X: (606) 886-6148
piller sn @gm a il.com

QU ES TION P RES EN TED
Th e pet it ion er , E u gen e Slon e, is a feder a l in m a t e
wh o plea ded gu ilt y in 2015 t o ch a r ges u n der 18 U.S.C. §
1513(a )(1)(B) for h is pu r por t ed r ole in a m u r der -for -h ir e
plot in t h e E a st er n Dist r ict of Ken t u cky. Th e Gover n m en t
a lleged t h a t Slon e pa id t o h a ve t wo people killed beca u se
h e believed t h ey wer e su pplyin g feder a l la w en for cem en t
wit h in for m a t ion r ega r din g Slon e’s oxycodon e dist r ibu t ion
r in g.
H owever , it ca m e t o ligh t befor e t r ia l t h a t n eit h er
vict im wa s a feder a l in for m a n t . Th is r a ised t h e qu est ion
a s t o wh et h er Slon e’s belief t h a t t h e vict im s wer e feder a l
in for m a n t s wa s en ough t o ch a r ge h im u nder 18 U.S.C. §
1513 or wh et h er t h e Gover n m en t la cked su bject m a t t er
ju r isdict ion . Slon e’s t r ia l cou n sel decided n ot t o pr ess t h e
issu e a n d in st ea d a dvised h im t o a ccept t h e Gover n m en t ’s
offer of a bin din g plea a gr eem en t . Su bsequ en t ly, Slon e
execu t ed t h e plea dea l a n d wa s sen t en ced t o 25 yea r s in
pr ison , per t h e plea dea l.
In 2016, Slon e filed a m ot ion t o va ca t e, set a side, or
cor r ect h is sen t en ce u n der 28 U.S.C. § 2255, cla im ing t h a t
h is t r ia l cou n sel a ct ed in effect ively by fa ilin g t o ch a llen ge
t h e Cou r t ’s su bject m a t t er ju r isdict ion a n d t h a t h e
en t er ed
the
plea
a gr eem en t
u n kn owin gly
and
in volu n t a rily. F ollowin g a n eviden t ia r y h ea r in g wh er e
Slon e a n d h is t r ia l a t t or n eys t est ified, t h e Dist r ict Cou r t
den ied h is § 2255 m ot ion a n d declin ed t o issu e a
Cer t ifica t e of Appea la bilit y. Slon e a ppea led t o t h e Sixt h
Cir cu it , wh ich a lso declin ed t o issu e a Cer t ifica t e of
Appea la bilit y.
Wh en r a isin g a n in effect ive a ssist a n ce of cou n sel
cla im , a defen da n t m u st pr ove bot h (1) deficien t
per for m a n ce a n d (2) pr eju dice. S trick lan d v. Wash in gton ,
466 U.S. 668, 686 (1984).
Th e qu est ion h er ein pr esen t ed is: Did Slon e
su fficien t ly m eet h is bu r den u n der S trick lan d su ch t h a t

i

t h e Dist r ict a n d Cir cu it cou r t s sh ou ld h a ve gr a n t ed h is
pet it ion for a Cer t ifica t e of Appea la bilit y, a n d does t h e
Cer t ifica t e sch em e, a s cu r r en t ly con st r u ct ed, pa ss
con st it u t ion a l m u st er?

ii

S TATEMEN T OF RELATED P ROCEED IN GS
Th e P et it ion er is cu r r en t ly in t h e pr ocess of
a pplyin g for com pa ssion a t e r elea se.

iii

P ARTIES TO THE P ROCEED IN G
P et it ion er is E u gen e Slon e, wh o wa s a pla in t iffa ppella n t below.
Respon den t is t h e Unit ed St a t es of Am er ica , a
defen da n t -a ppellee below.

iv

TAB LE OF CON TEN TS
QUE STIONS P RE SENTE D.................................................i
STATE ME NT OF RELATE D P ROCE E DINGS ................iii
P ARTIE S TO TH E P ROCE E DING...................................iv
TABLE OF CONTE NTS......................................................v
TABLE OF AUTH ORITIE S..............................................vi i
P E TITION F OR A WRIT OF CE RTIORARI......................1
OP INIONS BE LOW........................................................ .....1
J URISDICTION...................................................................1
CONSTITUTIONAL AND STATUTORY
P ROVISIONS INVOLVE D..................................................1
STATE ME NT OF TH E CASE .............................................2
RE ASONS F OR GRANTING TH E P E TITION..................6
1.
E UGE NE SLONE ’S P E TITION
F OR A CE RTIF ICATE OF AUTH E NTICITY
WAS WRONGLY DENIE D BY TH E LOWE R
COURTS...............................................................................6
2.
E UGE NE SLONE ’S SIXTH
AME NDME NT RIGH T TO E F F E CTIVE
ASSISTANCE OF COUNSE L WAS VIOLATE D;
H IS H ABE AS P E TITION WAS WRONGLY DE NIE D......8
3.
TH E F E DE RAL CE RTIF ICATE OF
AUTH E NTICITY MODE L IS UNCONSTITUTIONAL
ON ITS F ACE .....................................................................13
CONCLUSION...................................................................17

v

AP P E NDIX
Reda ct ed Recom m en ded Disposit ion & Or der
a t Dkt . No. 840-1....................1a -37a
Mem or a n du m Opin ion & Or der
a t Dkt . N o. 862....................................38a -50a
Or der
a t Dkt . No. 866...................................51a -58a

vi

TAB LE OF AU THORITIES
CAS ES
Arn old v. Du tton , 602 F . Su pp. 115 (M.D. Ten n . 1984)....10
Avery v. Alabam a 308 U.S. 444 (1940)................................8
B arefoot v. E stelle, 463 U.S. 880 (1983).........................6,14
B rech t v. Abrah am son , 507 U.S. 619 (1993).......................8
B u ck v. Davis, 137 S. Ct . 759 (2017)...................................7
Castro v. Un ited S tates, 540 U.S. 375 (2003)....................10
Gon zalez v. T h aler, 565 U. S. 134 (2012)............................6
Glasser v. Un ited S tates, 315 U.S. 60 (1942)......................8
Glover v. Un ited S tates, 531 U.S. 198 (2001)......................9
H ill v. L ock h art, 474 U.S. 52 (1985)....................................9
H od ges v. Colson , 727 F .3d 517 (6t h Cir . 2013)..................9
J on es v. B arn es, 463 U.S. 745 (1983)................................16
Kin cad e v. S park m an , 117 F .3d 949 (6t h Cir . 1997)..........7
L afler v. Cooper, 566 U.S. 156 (2012)..................................9
M arbu ry v. M ad ison , 5 U.S. 137 (1803)............................14
M cM an n v. R ich ard son , 397 U.S. 759 (1970).....................9
M cQu een v. Un ited S tates, 58 F . App’x 73
(6t h Cir . 2003) (per cu r ia m ).................................................8
M iller v. S trau b, 299 F .3d 570 (6t h Cir . 2002)...................9

vii

M iller-E l v. Cock rell, 537 U.S. 322 (2003)..........................7
M oss v. H ofbau er, F .3d 851 (6 t h Cir . 2002)..............................9

Pow ell v. Alabam a, 287 U.S. 45 (1932)...............................8
R eece v. Georgia, 350 U.S. 85 (1955)...................................8
S in gleton v. Wu lff, 428 U.S. 106 (1976)................................16

S lack v. M cDan iel, 529 U.S. 473 (2000)..............................6
S m ith v. H ooey, 393 U.S. 374 (1969).................................10
S n iad o v. B an k Au stria AG, 378 F .3d 210
(2d Cir . 2004)..........................................................................16

S trick lan d v. Wash in gton , 466 U.S. 668 (1984)........i,8,9,13
Un ited S tates v. B ru n n er, 726 F .3d 299 (2d Cir . 2013)........16

Un ited S tates v. Cron ic, 466 U.S. 648 (1984)...............10,13
Watson v. Un ited S tates, 165 F .3d 486 (6t h Cir . 1999)......8
Welch v. Un ited S tates, 136 S. Ct . 1257 (2016)...................7
CON S TITU TION AN D S TATU TES
U.S. Con st . a m en d. VI.........................................................8
U.S. Con st . Ar t . III, § 1......................................................14
18 U.S.C. § 1512............................................................1 1,12
18 U.S.C. § 1512(a )(1) ..................................................11,12
18 U.S.C. § 1513............................................................i,5,12
18 U.S.C. § 1513(a )(1)(B).................................................i,11

viii

28 U.S.C. § 2253...............................................i,6,7,15,16,17
28 U.S.C. § 2253(c)...............................................................6
28 U.S.C. § 2253(c)(1).........................................................15
28 U.S.C. § 2253(c)(2)...........................................................6
28 U.S.C. § 2255.........................................................i,4,5,10
28 U.S.C. § 2255(a )..........................................................8,13
F ed. R. Cr im . P . 52(b)........................................................10
Ky. Rev. St a t . § 505.050.....................................................12
S ECON D ARY S OU RCES
Ca ssa n dr a B. Rober t son , T h e R igh t to Appeal,
91 N.C. L. Rev. 1219, 1235 (2013).....................................16
J on a h J . H or wit z, Certifiable: Certificates of
Appealability, H abeas Corpu s, an d th e
Perils of S elf-J u d gin g, 17 Roger Willia m s
U. L. Rev. 694, 701 (2012)..................................................14

ix

P ETITION F OR A WRIT OF CERTIORARI
P et it ion er r espect fu lly r equ est s a wr it of cer t ior a r i
t o r eview t h e ju dgm en t of t h e Un it ed St a t es Cou r t of
Appea ls for t h e Sixt h Cir cu it .
OP IN ION S B ELOW
Th e decision of t h e Cou r t of Appea ls t o den y Slon e’s
Cer t ifica t e of Appea la bilit y pet it ion wa s n ot pu blish ed but
is loca t ed a t S lon e v. Un ited S tates of Am erica, No 6:12-cr 00028-GF VT-H AI (6t h Cir . F eb. 26, 2020). It is a lso
r epr in t ed in t h e Appen dix t o P et it ion (“App.”) a t 38a . Th e
Dist r ict Cou r t ’s or der den yin g Slon e’s Cer t ifica t e of
Appea la bilit y wa s n ot pu blish ed bu t is loca t ed a t Un ited
S tates v. S lon e, No 6:12-cr -00028-GF VT-H AI, 2019 U.S.
Dist . LE XIS 136348 (E .D. Ky. Au g. 13, 2019) a n d
r epr in t ed a t App. 51a .
J U RIS D ICTION
Th e Cou r t of Appea ls issu ed it s decision on F eb. 26,
2020. App. 38a . Th is Cou r t h a s ju r isdict ion u n der 28
U.S.C. § 1254(1).
CON S TITU TION AL AN D S TATU TORY
P ROVIS ION S IN VOLVED
Th e Sixt h Am en dm en t t o t h e Un it ed St a t es
Con st it u t ion en sh r in es a defen da n t ’s r igh t “t o h a ve t h e
Assist a n ce of Cou n sel for h is defen se.”

1

S TATEMEN T OF THE CAS E
A feder a l gr a n d ju r y in J u ly 2012 in dict ed E u gen e
Slon e on on e cou n t of con spir in g t o dist r ibu t e pills
con t a in in g oxycodon e, a Sch edu le II con t r olled su bst a n ce,
in viola t ion of 21 U.S.C. § 841(a )(1) a n d 21 U.S.C. § 846.
In dict m en t a t Dkt . No. 1. Th e in dict m en t a lleged t h e
con spir a cy spa n n ed sever a l cou n t ies in t h e E a st er n
Dist r ict of Ken t u cky, com m en ced in or a bou t Novem ber
2009, a n d con t in u ed t h r ou gh J u ly 26, 2012, t h e da y Slon e
wa s in dict ed. In dict m en t a t Dkt . No. 1. Aft er r eceivin g t h e
in dict m en t , Slon e h ir ed a t t or n ey Br a n don St or m t o
r epr esen t h im . Reda ct ed Recom m en ded Disposit ion &
Or der a t Dkt . No. 840-1, P a ge ID# 3855.
A Su per sedin g In dict m en t t h a t issu ed on Au gu st 3,
2012, a dded eleven codefen da n t s in con n ect ion t o t h e
oxycodon e con spir a cy Slon e a llegedly helped en gin eer .
Su per sedin g In dict m en t a t Dkt . No. 18. Abou t t wo m on t h s
la t er , a t t or n eys Ma r t in P in a les a n d Ca n da ce Cr ou se
join ed Slon e’s defen se t ea m . Reda ct ed Recom m en ded
Disposit ion & Or der a t Dkt . No. 840-1, P a ge ID# 3855.
A Secon d Su per sedin g In dict m en t , issu ed on
Decem ber 11, 2012, a ppen ded t wo m or e ch a r ges a ga in st
Slon e for killin g Da vey Spa r km a n a n d Keish a Sext on
wit h in t en t t o r et a lia t e a ga in st t h em for pr ovidin g
in for m a t ion t o la w en for cem en t . Su per sedin g In dict m en t
a t Dkt . No. 129. Two weeks la t er , Slon e’s a t t or n eys
r eceived n ot ice t h a t t h e Un it ed St a t es int en ded t o seek
t h e dea t h pen a lt y. Reda ct ed Recom m en ded Disposit ion &
Or der a t Dkt . No. 840-1, P a ge ID# 3856. In r espon se, t h e
Cou r t design a t ed t h e ca se “com plex” u nder t h e Speedy
Tr ia l Act on J a n u a r y 11, 2013. Reda ct ed Recom m en ded
Disposit ion & Or der a t Dkt . No. 840-1, P a ge ID# 3856. In
Decem ber 2013, Slon e’s defen se t ea m m a de a
pr esen t a t ion t o t h e Depa r t m en t of J u st ice Ca pit a l Cr im es
Un it in Wa sh in gt on , D.C., a skin g t h e At t or n ey Gen er a l t o
r efr a in fr om seekin g t h e dea t h pen a lt y a ga in st Slon e.
Reda ct ed Recom m en ded Disposit ion & Or der a t Dkt . No.
840-1, P a ge ID# 3856. Th e Un it ed St a t es filed n ot ice on

2

F ebr u a r y 13, 2014, t h a t it wou ld n ot seek t h e dea t h
pen a lt y. Reda ct ed Recom m en ded Disposit ion & Or der a t
Dkt . No. 840-1, P a ge ID# 3856.
Two weeks la t er , Slon e m oved t h e cou r t a ga in t o
decla r e t h e ca se com plex, su pplem en t in g t h e m ot ion wit h
a Speedy Tr ia l wa iver bea r in g h is sign a t u r e. Mot ion t o
Wa ive Speedy Tr ia l Righ t a n d t o Decla r e Th is Act ion
Com plex a t Dkt . No. 449. Th e Cou r t gr a n t ed t h e m ot ion .
Ar ou n d t h is t im e, Slon e’s r et a in er fees la psed, so t h e
Cou r t a ppoin t ed Cr ou se a n d St or m t o r epr esen t Slon e
u n der t h e Cr im in a l J u st ice Act . Min u t e E n t r y Or der a t
Dkt . No. 456. P in a les a gr eed t o a ssist in Slon e’s defen se
a t n o cost t o t h e Unit ed St a t es. Min u t e E n t r y Or der a t
Dkt . No. 456. At t h is poin t , Slon e wa s fa cin g a Novem ber
t r ia l da t e, so h e effect ed a n ot h er Speedy Tr ia l wa iver on
Sept em ber 29, 2014, post pon in g h is t r ia l u n t il J a n u a r y
20, 2015. Wa iver by E u gen e Slon e of Righ t t o a Speedy
Tr ia l a t Dkt . No. 518.
Th e ca se n ever wen t t o t r ia l. Slon e en t er ed a gu ilt y
plea on J a n u a r y 16, 2015. Bin din g P lea Agr eem en t a t
Dkt . No. 635. As pa r t of t h e bin din g plea a gr eem en t ,
Slon e
m a de
the
followin g
fa ct ua l
a dm ission s
cor r espon din g t o Cou n t s Two a n d Th r ee of t h e
Su per sedin g In dict m en t :
(b)
On J u n e 25, 2012, Dr u g E n for cem en t
Adm in ist r a t ion (DEA) a gen t s execu t ed a
sea r ch wa r r a n t a t t h e r esiden ce of Ru t h
Beckn er in Ma n ch est er , Ken t u cky, wh er e t h e
Defen da n t a lso lived. As a r esu lt of t h is
sea r ch , t h e Defen da n t believed t h a t som eon e
h a d pr ovided in for m a t ion t o feder a l a gen t s
r ega r din g
h is
oxycodon e
dist r ibu t ion
a ct ivit ies. Th e Defen da n t a n d ot h er s
u lt im a t ely con clu ded t h a t t h ose in for m a n t s
wer e Da vey Spa r km a n a n d Kiesh a Sext on.
(c)
Aft er t h e DE A's sea r ch on J u n e 25,
2012, t h e Defen da n t con spir ed a n d a gr eed

3

wit h ot h er s t o kill Da vey Spa r km a n a n d
Keish a Sext on in r et a lia t ion for t h eir
believed cooper a t ion wit h la w en for cem en t .
Specifica lly, t h e Defen da n t pr ovided ca sh t o
a n ot h er m em ber of t h e con spir a cy a s
pa ym en t t o kill Spa r km a n a n d Sext on . On
J u ly 19, 2012, t h e Defen da n t con t a ct ed
Spa r km a n a n d Sext on a n d dir ect ed t h em t o
a n a ba n don ed m in e sit e in Kn ot t Cou n t y,
Ken t u cky, for a m eet in g. Th e Defen da n t did
so wit h t h e specific kn owledge t h a t m em ber s
of t h e con spir a cy wou ld be wa it in g t o kill
t h em u pon t h eir a r r iva l. Wh en Spa r km a n
a n d Sext on a r r ived, t h ey wer e sh ot t o dea t h
a n d t h e veh icle t h ey wer e r idin g in wa s set
on fir e.
Id . a t P a ge ID# 2303. P er t h e plea a gr eem en t , Slon e a lso
wa ived t h e r igh t t o a ppea l h is gu ilt y plea , con vict ion a n d
sen t en ce, a n d h e wa ived t h e r igh t t o a t t a ck colla t er a lly
t h e gu ilt y plea , con vict ion , a n d sen t en ce, except for cla im s
of in effect ive a ssist a n ce of cou n sel. Id . a t P a ge ID# 230304. On Ma y 19, 2015, U.S. Dist r ict J u dge Am u l Th a pa r
sen t en ced Slon e t o t h e im pr ison m en t t er m of 300 m on t h s
pr oscr ibed in t h e plea a gr eem en t . J u dgm en t in a Cr im ina l
Ca se a t Dkt . No. 715, P a ge ID# 2546. Slon e did n ot a ppea l
t h e sen t en ce.
On Ma y 12, 2016, Slon e filed a m ot ion t o va ca t e, set
a side, or cor r ect h is sen t en ce u n der 28 U.S.C. § 2255.
Reda ct ed Recom m en ded Disposit ion & Or der a t Dkt . No.
840-1 P a ge ID# 3856. Slon e a lleged t h a t h is plea
a gr eem en t wa s n ot execu t ed kn owin gly a n d volu n t a r ily
a n d t h a t h is cou n sel wa s in effect ive for fa ilin g t o
ch a llen ge t h e Cou r t ’s su bject m a t t er ju r isdict ion a n d for
wa ivin g his r igh t s un der t h e Speedy Tr ia l Act . Or der a t
Dkt No. 799. On F ebr u a r y 2, 2017, t h e Cou r t gr a n t ed
Slon e’s m ot ion for a n eviden t ia r y h ea r ing a n d a ppoin t ed
a t t or n ey Da vid Gu a rn ier i t o r epr esen t h im . Id . a t P a ge
ID# 3116.

4

Th e eviden t ia r y h ea r in g t ook pla ce in Lexin gt on on
J u ly 7, 2017, before U.S. Ma gist r a t e J u dge H a n ley
In gr a m . Tr a n scr ipt of E viden t ia r y H ea r in g P r oceedin g
befor e U.S. Ma gist r a t e J u dge H a n ly A. In gr a m a t Dkt No.
824, P a ge ID# 3274. At t h e h ea r in g, t h e Cou r t h ea r d
t est im on y fr om Slon e, St or m , a n d Cr ou se; a n d t h e t h r ee
wit n esses wer e qu est ion ed by bot h t h e Gover n m en t a n d
Mr . Gu a r n ier i. Reda ct ed Recom m en ded Disposit ion &
Or der a t Dkt . No. 840-1, P a ge ID# 3858.
Slon e’s t est im on y a t t h e h ea r in g, a s well a s his
su bsequ en t P ost -H ea r in g Mem or a n du m of La w, in
r eleva n ce t o h is §2255 m ot ion , r elied on a t wo-pa r t
fou n da t ion : (1) H is t r ia l cou n sel’s fa ilu re t o ch a llen ge
wh et h er su bject m a t t er ju r isdict ion exist ed for Cou n t s 2
a n d 3 of t h e Su per sedin g In dict m en t sin ce t h e
Gover n m en t con ceded t h a t n eit h er vict im pr ovided
in for m a t ion t o la w en for cem en t , wh ich is a n ecessa r y
elem en t u n der 18 U.S.C. § 1513, a n d (2) H is t r ia l
cou n sel’s u n r ea son a ble r ecom m en da t ion t h a t Slon e a ccept
a plea offer t h a t in clu ded a sen t en ce five yea r s lon ger
t h a n t h e st a t u t or y m a xim u m h e wou ld h a ve been fa ced
u n der Cou n t 1. P ost -H ea r in g Mem or a n du m of La w a t
Dkt . No. 832, P a ge ID# 3759.
Ma gist r a t e J u dge In gr a m fou n d t h e a r gu m en t s
u n con vin cin g. On Novem ber 9, 2017, J u dge In gr a m
pu blish ed a r ecom m en da t ion t h a t Slon e’s §2255 m ot ion be
den ied a n d t h a t n o Cer t ifica t e of Appea la bilit y issu e.
Reda ct ed Recom m en ded Disposit ion & Or der a t Dkt . No.
840-1, P a ge ID# 3865. Th ese r ecom m en da t ion s wer e
a dopt ed by U.S. Dist r ict J u dge Gr egor y Va n Ta t en h ove on
Au gu st 13, 2019. Mem or a n du m Opin ion & Or der a t Dkt .
No. 862. Slon e a ppea led t h e Dist r ict Cou r t ’s den ia l of h is §
2255 pet it ion a n d Cer t ifica t e of Appea la bilit y t o t h e U.S.
Sixt h Cir cu it Cou r t of Appea ls, wh ich r u led a ga in st h im
a n d u ph eld t h e lower cou r t ’s fin din gs on F ebr u a r y 26,
2020. Or der a t Dkt . No. 866. This a ppea l followed.

5

REASONS FOR GRANTING THE PETITION
1. Eugene Slone’s petition for a Certificate of Authenticity
was wrongly denied by the lower courts.
Federal law requires a party seeking to appeal a judgment
from U.S. District Court to first obtain a Certificate of
Appealability (“COA”). The point of the COA process is to
“scree[n] out issues unworthy of judicial time and attention and
ensur[e] that frivolous claims are not assigned to merits
panels.” Gonzalez v. Thaler, 565 U. S. 134, 145 (2012). COA
procedure is governed by 28 U.S.C. § 2253, which states, in
pertinent part:
(c)(1) Unless a circuit justice or judge issues a
certificate of appealability, an appeal may not be
taken to the court of appeals from—
(A) the final order in a habeas corpus proceeding in
which the detention complained of arises out of
process issued by a State court; or
(B) the final order in a proceeding under section
2255.
28 U.S.C. § 2253(c). Furthermore, this statute requires the
petitioner to make “a substantial showing of the denial of a
constitutional right” before a COA will issue. 28 U.S.C. §
2253(c)(2).
The COA inquiry is distinct from a merits analysis. At the
COA stage, the only question is whether the applicant has shown
that “jurists of reason could disagree with the district court’s
resolution of his constitutional claims or that jurists could conclude
the issues presented are adequate to deserve encouragement to
proceed further.” Slack v. McDaniel, 529 U.S. 473, 484 (2000)
(quoting Barefoot v. Estelle, 463 U.S. 880, 893 (1983)). If the
answer is affirmative, the § 2253(c)(2) standard is satisfied. Id.

6

This “threshold” inquiry is more limited and forgiving than
“adjudication of the actual merits.” Buck v. Davis, 137 S. Ct. 759,
774 (2017) (quoting Miller-El v. Cockrell, 537 U.S. 322, 337
(2003)); see also id., at 336 (noting that “full consideration of the
factual or legal bases adduced in support of the claims” is not
appropriate in evaluating a request for a COA). Accordingly, the
Supreme Court has instructed that review of the denial of a COA
is a retrospective inquiry into whether the movant’s claims, as
litigated in the district court, warrant further proceedings – not
whether there is any conceivable basis upon which the movant
could prevail. Welch v. United States, 136 S. Ct. 1257, 1269
(2016).
Although a circuit judge has authority to grant a COA to a
habeas petitioner, a petitioner appealing the denial of a §
2255 petition must "apply first to the district court for
a certificate of appealability." Kincade v. Sparkman, 117 F.3d 949,
953 (6th Cir. 1997).
The facts and circumstances surrounding the present case
clearly indicate Slone should have received a COA from either the
U.S. District Court for the Eastern District of Kentucky or the U.S.
Court of Appeals for the Sixth Circuit. Slone made a substantial
showing in the district court that his Sixth Amendment right to
effective assistance of counsel was violated. Likewise, Slone
advances the argument, infra, that the COA requirement, as
currently constructed under § 2253, violates due process.
Regardless of whether they believe his claims have merit,
reasonable jurists could look at either the District Court’s
dispensation of Slone’s claim of ineffective assistance of counsel
or his argument that COA procedure is unconstitutional and
disagree about whether they each are adequate to deserve appellate
scrutiny. In this sense, Slone’s claims pass the Buck v. Davis
threshold inquiry since it is a much more lenient standard than
actual adjudication on the merits. For reasons stated herein and
hereinafter, Slone’s petition for a COA was sound and should have
been granted at District Court.

7

2. Eugene Slone’s Sixth Amendment right to effective
assistance of counsel was violated; his habeas petition
was wrongly denied.
A federal prisoner may seek habeas relief if his or her
sentence violates the Constitution or federal law. 28 U.S.C. §
2255(a). Per statute, a prisoner seeking release upon this ground
may move the court which imposed the sentence to vacate, set
aside, or correct the sentence. Id. To prevail on a § 2255 motion
alleging constitutional error, the movant must establish that the
error had a “substantial and injurious effect or influence on the
proceedings.” Watson v. United States, 165 F.3d 486, 488 (6th Cir.
1999) (citing Brecht v. Abrahamson, 507 U.S. 619, 637 (1993)).
Moreover, the movant bears the burden of proving his or her
allegations by a preponderance of the evidence. McQueen v.
United States, 58 F. App’x 73, 76 (6th Cir. 2003) (per curiam).
The Constitution enshrines a defendant’s right “to have the
Assistance of Counsel for his defense.” U.S. Const. amend. VI. To
that end, it has long been recognized that the Sixth Amendment
right to counsel is the right to the effective assistance of counsel.
See Reece v. Georgia, 350 U.S. 85, 90 (1955); Glasser v. United
States, 315 U.S. 60, 69-70 (1942); Avery v. Alabama 308 U.S. 444,
446 (1940); Powell v. Alabama, 287 U.S. 45, 57 (1932) (emphasis
added). Correspondingly, ineffective assistance of counsel
infringes on a prisoner’s constitutional rights and, therefore,
provides standing for a petition under § 2255 to vacate, set aside,
or correct the prisoner’s sentence.
When raising an ineffective assistance of counsel claim, a
defendant must prove both (1) deficient performance and (2)
prejudice. Strickland v. Washington, 466 U.S. 668, 686 (1984). To
prove deficient performance, a defendant must show that “counsel
made errors so serious that counsel was not functioning as the
‘counsel’ guaranteed the defendant by the Sixth Amendment.” Id.
at 687. A defendant meets this burden by showing “that counsel’s
representation fell below an objective standard of reasonableness”
as measured under “prevailing professional norms” and evaluated

8

“considering all the circumstances.” Id. at 688. A reviewing court
may not second-guess trial counsel’s strategic decisions. Moss v.
Hofbauer, F.3d 851, 859 (6th Cir. 2002).
The requirement for prejudice is based on the conclusion
that “[a]n error by counsel, even if professionally unreasonable,
does not warrant setting aside the judgment of a criminal
proceeding if the error had no effect on the judgment.” Hill v.
Lockhart, 474 U.S. 52, 57 (1985) (quoting McMann v. Richardson,
397 U.S. 759 (1970)). To establish prejudice, after considering the
“totality of the evidence before the judge or jury,” a defendant
“must show that there is a reasonable probability that, but for
counsel’s unprofessional errors, the result of the proceeding would
have been different.” Strickland, 466 U.S. at 694-96.
For proving prejudice in the context of pleas, “a defendant
must show the outcome of the plea process would have been
different with competent advice.” Lafler v. Cooper, 566 U.S. 156,
162 (2012). Put another way, a defendant “must show that there is
a reasonable probability that, but for counsel’s errors, he would not
have pleaded guilty and insisted on going to trial.” Hodges v.
Colson, 727 F.3d 517 (6th Cir. 2013) (quoting Lockhart, 474 U.S.
at 69). Prejudice in this context “focuses on whether counsel’s
constitutionally ineffective performance affected the outcome of
the plea process.” Hill, 474 U.S. at 59. To show prejudice in the
sentencing context, a movant must establish that his sentence was
lengthened by the deficient performance of his attorney. Glover v.
United States, 531 U.S. 198, 200 (2001).
In addition to showing that specific errors by counsel were
unreasonable, the defendant also carries the burden of proving that
there is a reasonable probability that counsel’s mistakes actually
had an adverse effect on his defense. Strickland, 466 U.S. at 693.
A reasonable probability is a probability sufficient to undermine
confidence in the outcome; it is less than a preponderance of the
evidence. Miller v. Straub, 299 F.3d 570, 581 (6th Cir. 2002)
(quoting Strickland, 466 U.S. at 694). Additionally, a defendant’s
testimony, even if self-serving, may be enough by itself to satisfy
the prejudice prong if reasonable inferences from the facts and

9

circumstances of the case establish prejudice. Hill, 474 U.S. at 59
(quoting Miller, 299 F.3d at 581).
The Supreme Court has identified particular scenarios in
which the court may bypass Strickland’s prejudice inquiry. These
scenarios are discussed in United States v. Cronic, 466 U.S. 648
(1984). One of the scenarios in which a defendant is entitled to a
presumption of prejudice is when “counsel entirely fails to subject
the prosecution’s case to meaningful adversarial testing.” Id. at
659.
In the case at bar, Slone’s argument for habeas relief under
28 U.S.C. § 2255 satisfied the factors established by statute and
case law. Consequently, the District Court and Circuit Court
incorrectly rejected his application for a COA.
Slone’s Sixth Amendment right to effective counsel was
impinged by his trial counsel in two primary ways: (1) The failure
to challenge whether Counts 2 and 3 of the Superseding Indictment
against Slone met the required statutory elements and gave the
Government subject matter jurisdiction, given that neither victim
was actually a federal informant, and (2) The unreasonable
encouragement of Slone to execute a 25-year plea deal because of
fear of a worse punishment under a different federal criminal law
or Kentucky law.
The first argument was properly preserved in both the
District Court and Circuit Court COA petitions. The second
argument, raised by Slone’s attorney in the District Court but not
raised when he proceeded pro se before the Circuit Court, should
be reviewed by this Court under plain error analysis. Fed. R. Crim.
P. 52(b) (“a plain error that affects substantial rights may be
considered even though it was not brought to the court’s
attention.”) A document filed pro se is to be construed more
leniently than other motions. Castro v. United States, 540 U.S.
375, 381-83 (2003). The Sixth Amendment is “a substantial right
we all have” and “one of the most basic rights preserved by our
Constitution.” Arnold v. Dutton, 602 F. Supp. 115, 120 (M.D.
Tenn. 1984) (quoting Smith v. Hooey, 393 U.S. 374, 378 (1969)).
Therefore, a substantial right of Slone’s was implicated by trial

10

counsel’s ineffective assistance, which led to denial of a
Certificate, and he is entitled to plain error review of his second
argument.
The Superseding Indictment charged Slone, in Counts 2
and 3, with violating 18 U.S.C. § 1513(a)(1)(B) for allegedly
killing Davey Sparkman and Keisha Sexton while under the belief
that they were supplying federal officials with information about
Slone’s alleged drug ring. Indictment at Dkt. No. 1. As it turned
out, Sparkman and Sexton were not federal informants.1 This fact
called into question whether, under § 1513(a)(1), belief alone was
enough to support a conviction or whether the Government lacked
subject matter jurisdiction. Post-Hearing Memorandum of Law at
Dkt. No. 832, Page ID# 3. Slone’s trial attorneys, Brandon Storm
and Candace Crouse, researched two cases and determined case
law was unclear as to the issue of subject matter jurisdiction in this
particular instance. (Id.) Storm and Crouse eventually decided
against raising the issue pre-trial, citing concerns that Slone would
face harsher sentences if (1) The Government superseded the
indictment again and charged Slone under a different statute, 18
U.S.C. § 1512, or (2) Kentucky initiated prosecution under state
law. (Id.)
These concerns, while understandable, were erroneous and
deprived Slone of the quality of counsel guaranteed by the Sixth
Amendment.
The statute Slone’s attorneys feared he would be charged
under in a third superseding indictment is 18 U.S.C. § 1512:
(a)(1) Whoever kills or attempts to kill another
person, with intent to—
(A) prevent the attendance or testimony of any
person in an official proceeding;

1

Before trial, the Government “explained to Defense Counsel that the victims
were not informants, and that its theory of the case was that Mr. Slone killed the
victims because he believed they were informants.” Post-Hearing Memorandum
of Law at Dkt. No. 832, Page ID# 3.

11

(B) prevent the production of a record, document, or
other object, in an official proceeding; or
(C) prevent the communication by any person to a
law enforcement officer or judge of the United
States of information relating to the commission or
possible commission of a Federal offense or a
violation of conditions of probation, parole, or
release pending judicial proceedings;
shall be punished as provided in paragraph (3).
As demonstrated infra, “prevent” is the crucial word used three
times in 18 U.S.C. § 1512(a)(1). The purported evidence used to
obtain the search warrant – a warrant that prosecutors argued
motivated Slone to kill – had already been given to law
enforcement before Sparkman and Sexton were killed. (emphasis
added). Ergo, there was no § 1512 conduct for Slone to “prevent.”
The Government is who told defense counsel that the victims were
not informants. More than two years lapsed between the Second
Superseding Indictment (December 2012) and entering the plea
agreement (January 2015), so the Government had ample time to
revise Slone’s charges if it believed the evidence pointed to guilt
under § 1512. Concern by Slone’s trial attorneys of the
Government initiating further prosecution under 18 U.S.C. § 1512
was not grounded in reality.
Slone’s trial attorneys were also unreasonable in fearing a
subsequent state prosecution in Kentucky if he failed to accept the
Government’s 25-year plea deal. For one thing, Kentucky law, in
its prohibition against unfair or oppressive prosecutions, states that
a federal prosecution for an alleged crime that occurred in
Kentucky which results in an acquittal is a bar to a subsequent
prosecution in the state. Ky. Rev. Stat. § 505.050. Thus, if Slone’s
attorneys had successfully argued a motion for Rule 29 Judgment
of Acquittal on grounds that the Government had not proved an
essential element of 18 U.S.C. § 1513, Slone would be inoculated
from prosecution by Kentucky authorities.

12

Bearing these facts and analysis in mind, it is obvious the
Government’s case did not undergo meaningful adversarial testing
by Slone’s attorneys. Hence, the case at bar operates within a
Cronic exception to Strickland and does not necessitate a
traditional prejudice inquiry. Nevertheless, Slone argues that he
more than meets his burden for proving both prejudice and
deficient performance under Strickland.
It was objectively unreasonable, when measured against
prevailing professional norms and considering the stakes and
circumstances, for Slone’s trial attorneys to fail to challenge
subject matter jurisdiction and to push him toward a plea deal
under the guise of a possible prosecution in Kentucky. This course
of conduct by Slone’s attorneys transcended the realm of strategy
and tactics and crossed headlong into deficiency of performance.
No question remains that trial proceedings would have turned out
differently if Slone had not accepted the plea deal and had instead
gone to trial that likely would have ended with a Rule 29 Judgment
of Acquittal. In terms of the plea process itself, the outcome
certainly would have been different because Slone, armed with
awareness of his likelihood of acquittal, never would have assented
to the agreement in the first place. He would have insisted on
trying the case.
In sum, Slone exceeded the Strickland factors for proving
inadequate assistance of counsel by his trial attorneys. His Sixth
Amendment right to effective assistance of counsel was violated.
Thereupon, the decision by the District Court and Circuit Court to
deny his COA petition for habeas relief under 28 U.S.C. § 2255(a)
was incorrect and should be reversed.
3. The federal Certificate of Authenticity model is
unconstitutional on its face.
The entire Certificate of Appealability schema tramples the
right to a direct appeal – a foundational component of the American
judicial system. Congress formulated the COA mechanism in 1996 as
part of the Antiterrorism and Effective Death Penalty Act

13

(“AEDPA”), which foisted cumbersome procedural hurdles on federal
habeas petitioners. The COA process essentially replaced the previous
similar method known as Certificate of Probable Cause.2 With
passage of the AEDPA, Congress overstepped its constitutional
restraints and operated with authority typically reserved for the
Judicial Branch. The AEDPA also created contradiction and
confusion about whether purview to issue a COA lies exclusively
with the district judge or a circuit judge. For these reasons, expounded
upon in the foregoing analysis, the Court should strike down 28
U.S.C. § 2253 as unconstitutional.
It has been long recognized, both explicitly and implicitly,
that “the general right to a direct appeal from the initial tribunal
that hears a dispute is a bedrock principle in the American judicial
system and its forbears.” Jonah J. Horwitz, Certifiable: Certificates
of Appealability, Habeas Corpus, and the Perils of Self-Judging,
17 Roger Williams U. L. Rev. 694, 701 (2012). Mr. Horwitz
correctly supports this principle by pointing to the seminal
Supreme Court case of Marbury v. Madison, 5 U.S. 137, 175
(1803) (affirming necessity of appellate review as a force that
revises and corrects the proceedings in a case already
instituted…”). Nevertheless, 28 U.S.C. § 2253 places a barrier in
front of the right to a direct appeal: Requiring habeas petitioners to
obtain a COA before appealing the denial of their motion. In this
sense, the COA requirement transgresses the original ideal of
judicial review established in Marbury v. Madison and thereby
impinges on authority of the Judicial Branch established in the
Constitution. U.S. Const. Art. III, § 1 (“The judicial Power of the
United States, shall be vested in one supreme Court, and in such
inferior Courts as the Congress may from time to time ordain and
establish.”).
In his law review article, Certifiable, supra, Mr. Horwitz
accurately describes the pitfalls of COA conditions in § 2253. He
laments the absurdity of vesting in district judges the discretion

2 See Barefoot v. Estelle, 463 U.S. 880, 892 (1983).

14

whether to issue COAs for cases and issues that might lead to a
higher court reversing their holdings:
Can we trust judges to consistently and effectively
evaluate the quality and certainty of their own
decisions? In other words, can we trust judges to
judge themselves? The answer presented here is a
resounding no. Judges are human, and however true
their intentions are, they are simply incapable of
judging their own decisions in any meaningful way.
17 Roger Williams U. L. Rev. at 698. It is self-evident to anyone
with common sense and a cursory understanding of human nature
that the power to issue a decree should not reside with someone
who stands a chance of suffering public chastisement and
embarrassment in connection to the decree. Too much is being left
to the whims of ego in this scenario. Judges cannot and should not
be their own appellate review. Allowing them to do so is
antithetical to the American justice system.
The COA framework established in § 2253 also
contravenes an established district court regulation. Rule 11(a) of
the Rules Governing Section 2254 Cases in the United States
District Courts requires a district judge to rule on a COA in the
first instance before the circuit court can take up the COA petition.
28 U.S.C. § 2254. Simultaneously, and in seeming conflict, § 2253
states: “Unless a circuit justice or judge issues a certificate of
appealability, an appeal may not be taken to the court of
appeals…” 28 U.S.C. § 2253(c)(1). It is untenable for these two
rules to coexist in a cogent, functioning justice system. “Simply
put, the two provisions obviously butt heads and only legal
acrobatics can make them jibe.” 17 Roger Williams U. L. Rev. at
707.
Permitting a judge to conduct his own appellate review also
arguably violates due process. Even though this Court has declined
to explicitly rule on whether there exists a constitutional right to
appellate review, two of the Court’s members have “expressed

15

doubt that the denial of appellate review would be upheld in the
modern era.” Cassandra B. Robertson, The Right to Appeal, 91
N.C. L. Rev. 1219, 1235 (2013). Justice Brennan, dissenting in a
case challenging the quality of representation in a criminal appeal,
and being joined in the dissent by Justice Marshall, posited that if
the Court took up a case in which a criminal defendant had been
denied any type of appellate review, he would “have little doubt
that we would decide that a State must afford at least some
opportunity for review of convictions, whether through the familiar
mechanism of appeal or through some form of collateral
proceeding.” Jones v. Barnes, 463 U.S. 745, 756 (1983) (Brennan,
J., dissenting). As a corollary, Justice Brennan said, “[t]here are
few, if any, situations in our system of justice in which a single
judge is given unreviewable discretion over matters concerning a
person’s liberty or property.” Id.
To be sure, Slone did not preserve or even present these
arguments in the lower courts. Slone acknowledges the general rule
that “a federal appellate court does not consider an issue not passed
upon below.” Singleton v. Wulff, 428 U.S. 106, 120 (1976). However,
appellate courts can, and often do, part from this general rule. After
all, the rule against considering arguments raised for the first time on
appeal “is prudential, not jurisdictional.” United States v. Brunner,
726 F.3d 299, 304 (2d Cir. 2013) (quoting Sniado v. Bank Austria
AG, 378 F.3d 210, 213 (2d Cir. 2004)). A determination to consider
an issue that was not preserved for appeal is a matter of the appellate
court’s discretion. Sniado, 378 F.3d at 213. “Exercise of that
discretion is particularly appropriate where an argument presents a
question of law and does not require additional fact finding.” Id.
Here, Slone’s arguments that 28 U.S.C. § 2253’s COA
requirement is unconstitutional is worthy of consideration by this
Court despite no preservation of the argument in previous
proceedings. The argument presents a legitimate and important
question of law that strikes at the heart of the appellate process as
currently constructed. No further fact finding is necessary for this
Court to adjudicate the issue. The Court should not penalize Slone,
a layperson who struggles to read and write, has no formal legal
education, and navigated some of appellate proceedings on a pro se

16

basis, for failing to raise the argument in previous hearings. Slone
hereby requests that this Court consider his argument and hold that
28 U.S.C. § 2253 violates the Constitution.
CONCLUSION
For the foregoing reasons, Slone respectfully requests that
this Court issue a writ of certiorari to review the judgement of the
Sixth Circuit Court of Appeals.
Dated this the 21st day of July, 2020.
Respectfully submitted,
s://NE D P ILLE RSDORF
NE D P ILLE RSDORF
At t or n ey At La w
124 West Cou r t St r eet
P r est on sbu r g, Ken t u cky 41653
P H : (606) 886-6090
F X: (606) 886-6148
piller sn @gm a il.com

17

AP P EN D IX
Reda ct ed Recom m en ded Disposit ion & Or der
a t Dkt . No. 840-1.........................................................1a -35a
Mem or a n du m Opin ion & Or der
a t Dkt . No. 862..........................................................36a -47a
Or der
a t Dkt . No. 866..........................................................48a -51a

18

1a

UNITE D STATE S DISTRICT COURT
E ASTE RN DISTRICT OF KENTUCKY
SOUTH E RN DIVISION
LONDON
No. 6:12-CR-28-GF VT-H AI-1
UNITE D STATE S OF AME RICA,
P la in t iff/Respon den t
v.
E UGE NE SLONE ,
Defen da n t /Mova n t
RE COMME NDE D DISP OSITION & ORDER
Defen da n t E u gen e Slon e h a s filed a m ot ion t o
va ca t e, set a side, or cor r ect h is sen t en ce u n der 28
U.S.C. § 2255. D.E . 747. H e a r gu es t h a t h is decision t o
en t er in t o a bin din g plea a gr eem en t (in wh ich h e
a dm it t ed t o pa r t icipa t ion in a dr u g dist r ibu t ion
con spir a cy a n d t wo cou n t s of m u r der in g a n in for m a n t )
wa s n ot volu n t a r y a n d kn owin g. D.E . 786 a t 5. H e
cla im s his cou n sel wer e in effect ive for coer cin g him in t o
plea din g in volu n t a r ily, for fa ilin g t o ch a llen ge t he
Cou r t ’s su bject m a t t er ju r isdict ion over t h e m u r der
ch a r ges, a n d for wa ivin g h is speedy-t r ia l r igh t s. D.E .
747. Aft er a t h or ou gh r eview of t h e r ecor d, it is clea r
t h a t Slon e is n ot en t it led t o r elief u n der § 2255.
I. B a c k g rou n d
In J u ly 2012, Defen da n t E u gen e Slon e wa s
in dict ed for on e cou n t of con spir in g t o dist r ibu t e
oxycodon e. D.E . 1. H e in it ia lly hir ed Br a n don St or m t o
r epr esen t h im . D.E . 13. A Su per sedin g In dict m en t
t h a t issu ed in Au gu st a dded eleven codefen da n t s. D.E .
18. In Oct ober ,

2a

Slon e a dded a t t or n eys Ma r t in P in a les a n d Ca n da ce
Cr ou se t o h is defen se t ea m . D.E . 117, 118.
In Decem ber 2012, a Secon d Su per sedin g In dict m en t
issu ed, wh ich a dded t wo a ddit ion a l ch a r ges a ga in st
Slon e of killin g wit h t h e in t en t t o r et a lia t e for pr ovidin g
in for m a t ion t o la w enfor cem en t . D.E . 129. Two weeks
la t er , t h e gover n m en t n ot ified Slon e’s a t t orn eys t h a t it
in t en ded t o seek t h e dea t h pen a lt y, a n d m oved t h e Cou r t
t o decla r e t h e ca se com plex. D.E . 148. On J a n u a r y 7,
2013, Slon e’s cou n sel a sked t h e Cou r t t o a ppoin t a n
a ddit ion a l a t t or n ey wit h ca pit a l lit iga t ion exper ien ce.
D.E . 165. On J a n ua r y 11, t h e Cou r t design a t ed t h e ca se
“com plex” u n der t h e Speedy Tr ia l Act . D.E . 174. In
F ebr u a r y 2013, t h e Cou r t a ppoin t ed Da vid Ba u gh a s
lea r n ed cou n sel for Slon e. D.E . 199. Slon e t h en filed a
m ot ion t o dism iss t h e Secon d Su per sedin g In dict m en t ,
wh ich wa s den ied. D.E . 324, 357. In Decem ber 2013,
Slon e’s defen se t ea m t r a veled t o Wa sh ingt on , D.C., t o
m a ke a pr esen t a t ion t o t h e Ca pit a l Cr im es U n it a skin g
t h e At t or n ey Gen er a l n ot t o seek t h e dea t h pen a lt y
a ga in st Slon e. D.E . 778-3 a t 6; D.E . 778-4 a t 5. In
F ebr u a r y 2014, t h e gover n m en t filed n ot ice t h a t it wou ld
n ot seek t h e dea t h pen a lt y. D.E . 431. Wit h t h e Cou r t ’s
per m ission , Mr . Ba u gh wit h dr ew a s cou n sel. D.E . 437.
On F ebr u a r y 27, 2014, Slon e m oved t h e Cou r t t o
a ga in decla r e t h e ca se com plex, n ot wit h st a n din g t h e
gover n m en t ’s decision t o for go seekin g a dea t h sen t en ce.
D.E . 449. Th a t m ot ion wa s a ccom pa n ied by a Speedy
Tr ia l wa iver , sign ed by Slon e on F ebr u a r y 24. D.E .
4492. Th e Cou r t gr a n t ed t h e m ot ion . D.E . 456. Aft er
t h a t , Slon e’s r et a in er fees wer e exh a u st ed, a n d t h e Cou r t
a ppoin t ed Mr . St or m a n d Ms. Cr ou se a s cou n sel u n der
t h e Cr im in a l J u st ice Act . D.E . 475. In Sept em ber , Slon e
m oved for a con t in u a t ion of t h e Novem ber t r ia l da t e.
D.E . 513.

Slon e execu t ed a n ot her Speedy Tr ia l wa iver , t h is
on e sign ed on Sept em ber 29, 2014. D.E . 518.

3a

Slon e’s t r ia l wa s r esch edu led, for t h e la st t im e, t o occu r
on J a n u a r y 20, 2015. D.E . 523.
A week befor e t r ia l, t h e defen se r eceived t h e
J en ck s m a t er ia l fr om t h e gover n m en t . As Mr . St or m
expla in s, t h is wa s “t h e fir st t im e t h a t t h e Defen se wa s
a ble t o lea r n wh o t h e Un it ed St a t es’ wit n esses wer e a n d
wh a t t h ey wer e sa yin g a bou t Mr . Slon e’s in volvem ent
in t h e t wom u r der s.” D.E . 778-3 a t 8. Aft er h is cou n sel
discu ssed t h is m a t er ia l wit h him , Slon e bega n a sking
for a plea dea l. Id . Cou n sel wa s a ble t o obt a in a
bin din g plea offer fr om t h e gover n m en t for a 25 -yea r
sen t en ce in exch a n ge for a gu ilt y plea t o a ll t h r ee
cou n t s. D.E . 635. Slon e a ckn owledges t h a t su ch a
sen t en ce is “per se len ien t ” for a con vict ion on t h e
m u r der ch a r ges. D.E . 747-7 a t 28-29.

Slon e plea ded gu ilt y on J a n u a r y 16, 2015. D.E .
633.
Th e bin din g plea a gr eem en t con t a in s t h e
following fa ct u a l a dm ission s r ela t ed t o t h e m u r der s in
Cou n t s Two a n d Th r ee:
(b) On J u n e 25, 2012, Dru g E n for cem en t
Adm in ist r a t ion (DE A) a gen t s execu t ed a
sea r ch wa r r a n t a t t h e r esiden ce of Ru t h
Beckn er in Ma n ch est er , Ken t u cky, wh er e
t h e Defen da n t a lso lived. As a r esu lt of
t h is sea r ch , t h e Defen da n t believed t h a t
som eon e h a d pr ovided in for m a t ion t o
feder a l a gen t s r ega r din g h is oxycodon e
dist r ibu t ion a ct ivit ies. Th e Defen da n t a n d
ot h er s u lt im a t ely con clu ded t h a t t h ose
in for m a n t s wer e Da vey Spa r km a n a n d
Keish a Sext on .
(c) Aft er t h e DE A’s sea r ch on J u n e 25,
2012, t h e Defen da n t con spir ed a n d a gr eed
wit h ot h er s t o kill Da vey Spa r km a n a n d
Keish a Sext on in r et a lia t ion for t h eir
believed
cooper a t ion
wit h
la w

4a

en for cem en t . Specifica lly, t h e Defen da n t
pr ovided ca sh t o a n ot h er m em ber of t h e
con spir a cy a s pa ym en t t o kill Spa r km a n
a n d Sext on .
On J u ly 19, 2012, t h e
Defen da n t con t a ct ed Spa r km a n a n d
Sext on a n d dir ect ed t h em t o a n
a ba n don ed m in e sit e in Kn ot t Cou n t y,
Ken t u cky, for a m eet in g. Th e Defen da n t
did so wit h t h e specific kn owledge t ha t
m em ber s of t h e con spir a cy wou ld be
wa it in g t o kill t h em u pon t h eir a r r iva l.
Wh en Spa r km a n a n d Sext on a r r ived, t h ey
wer e sh ot t o dea t h a n d t h e veh icle t h ey
wer e r idin g in wa s set on fir e.
D.E . 635 a t 3.
Th e plea a gr eem ent a lso con t a in s a wa iver
pr ovision a t pa r a gr a ph 7: “Th e Defen da n t wa ives t he
r igh t t o a ppea l t h e guilt y plea , con vict ion , a n d sen t en ce.
E xcept for cla im s of in effect ive a ssist a n ce of cou n sel,
t h e Defen da n t a lso wa ives t h e r igh t t o a t t a ck
colla t er a lly t h e gu ilt y plea , con vict ion , a n d sen t en ce.”
Id . a t 3-4.
On Ma y 19, 2015, Slon e wa s sen t en ced t o 300
m on t h s’ im pr ison m en t , a s r equ ir ed by t h e bin din g plea
a gr eem en t .
D.E . 715, 718 (Am en ded J u dgm en t ,
en t er ed Ma y 26). No pr esen t en ce r epor t wa s pr epa r ed.
D.E . 714. Slon e did not a ppea l.
Less t h a n a yea r la t er , on Ma y 12, 2016, Slon e
filed h is § 2255 m ot ion (D.E . 747), a ccom pa n ied by a n
a ffida vit (D.E . 747-1), cer t a in exhibit s (D.E. 747-2), a n d
a m em or a n du m (D.E . 747-7).
Th e gover n m ent
r espon ded (D.E . 778), a n d a t t a ch ed a ffida vit s by Mr .
St or m (D.E . 778-1, 778-3) a n d Ms. Cr ou se (D.E . 778-2,
778-4). Slon e r eplied, a n d su bm it t ed a n a ddit iona l
a ffida vit . D.E . 786. H e a lso m oved for a n eviden t ia ry
h ea r in g. D.E . 791.
On F ebr u a r y 2, 2017, t h e Cou r t gr a n t ed Slon e’s
m ot ion for a n eviden t ia r y h ea r in g on t h e ba sis t h a t key
fa ct s wer e in dispu t e. D.E . 799. Th e Cour t a ppoin t ed

5a

Da vid Gu a r n ier i t o r epr esen t Slon e a t t h e h ea r in g.
D.E . 804. On J u n e 9, 2017, t h e ca se wa s r ea ssign ed
fr om Dist r ict J u dge Th a pa r t o Dist r ict J u dge Va n
Ta t en h ove. D.E . 818.
Th e eviden t ia r y h ea rin g wa s h eld in Lexin gt on
on J u ly 7, 2017. D.E . 823, 824 (t r a n scr ipt ), 825 (sea led
por t ion of t r a n scr ipt ). Slon e, Mr . St or m , a n d Ms.
Cr ou se t est ified. D.E . 822. Th e t h r ee wit n esses wer e
qu est ion ed by bot h sides. Mr . St or m a n d Ms. Cr ou se
did n ot h ea r ea ch ot h er ’s t est im on y, yet t h eir t est im ony
wa s con sist en t .
In con t r a st , Slon e’s live t est im on y con t r a dict ed
h is m ot ion a n d a ffida vit s, bot h of wh ich wer e sign ed
u n der pen a lt y of per ju r y. S ee D.E . 747 a t 14 (m ot ion
for m ); D.E . 747-1 a t 8 (a ffida vit ); D.E . 786 a t 21
(a ffida vit ). In it s post -h ea r in g br ief, t h e gover n m en t
h a s ca t a logu ed in det a il t h e con t r a dict ion s a n d
con cession s t h a t Slon e m a de a t t h e J u ly 2017
eviden t ia r y h ea r in g. D.E . 836 a t 2-7. Slon e t r ied t o
excu se som e of t h e con t r a dict ion s by ch a lkin g t h em u p
t o m isu n der st a n din gs on t h e pa r t of t h e fellow -pr ison er
wh o pr epa r ed t h e filin gs r ela t ed t o h is § 2255 m ot ion.
D.E . 824 a t 44, 50-51, 55-56. Th ese con t r a dict ion s
in clu de Slon e’s live r et r a ct ion of h is for m er wr it t en
a llega t ion t h a t Mr . St or m coa ch ed h im t o lie a t h is
r ea r r a ign m en t h ea r ing. Id . a t 43, 67-68.

In a ddit ion t o con t r a dict in g h is filings r ela t ed t o
h is § 2255 m ot ion , Slon e’s swor n t est im on y a t t he
eviden t ia r y h ea r in g con t r a dict ed h is swor n t est im on y
a t h is r ea r r a ign m en t . Most n ot a bly, h e cla im ed u n der
oa t h a t t h e h ea r in g t o be in n ocen t of t h e m u r der s t o
wh ich h e plea ded guilt y. S ee D.E . 837 a t 4-5; D.E . 825
a t 38-39.
At t h e h ea r in g, t h e gover n m en t h igh ligh t ed t h is
con t r a dict ion by r ea din g fr om t h e DE A-6 r epor t t h a t
Agen t Rich a r d Da lr ym ple pr odu ced t o m em or ia lize h is
in t er view of Slon e on t h e da y Slon e plea ded gu ilt y.
D.E . 825 a t 81-89. Accor din g t o t h e r epor t , Slon e t old

6a

Agen t Da lr ym ple in 2015 t h a t , a ft er t h e sea r ch wa r r a n t
wa s execu t ed a t h is r esiden ce, h e m et wit h t h e ot h er
m em ber s of t h e dr u g con spir a cy. Id . a t 85-86. Th e
pu r pose of t h e m eet in g wa s t o “t r y t o det er m in e wh o
t h e police in for m a n t wa s.” Id . a t 86. Accor din g t o t h e
r epor t , Slon e t old Agen t Da lr ym ple t h a t La r r y Sm it h
t old t h e gr ou p of cocon spir a t or s t h a t h e knew som eon e
wh o wou ld be willin g t o kill Da vey Spa r km a n in
exch a n ge for $10,000—m on ey t h a t Slon e la t er pr ovided.
Id . Accor din g t o t h e r epor t , a n ot h er cocon spir a t or
a sked Slon e t o “t o bor r ow $10,000 for t h e pla n ,” a n d
Slon e pr ovided t h e fu n ds. Id . a t 87. In con t r a st , Slon e
t est ified a t t h e 2017 h ea r in g t h a t h e ga ve La r r y Sm it h
“$10,000 t o bu y in su r a n ce a n d t a gs for h is t r a iler
m ovin g com pa n y.” Id . a t 86. Slon e den ied a t t h e
h ea r in g t h a t h e t old Agen t Da lr ym ple t h a t h e pr ovided
t h e $10,000 t h e con spir a t or s n eeded t o h ir e t h e killer .
Id . a t 87. Th u s, Slon e’s pr ot est a t ion s of in n ocen ce a t
t h e J u ly 2017 h ea r in g con t r a dict ed bot h h is swor n
t est im on y a t h is r ea r r a ign m en t (ba sed on t h e
st a t em en t of fa ct s in h is gu ilt y plea ) a n d his st a t em en t s
t o Agen t Da lr ym ple t h a t wer e m em or ia lized in t h e
DE A-6.
In a ddit ion t o t h ese m a jor cr edibilit y pr oblem s,
t h e gover n m en t a r gu es t h a t Slon e’s t est im on y t h a t he
ca n n ot r ea d is in cr edible in ligh t of cer t a in t est scor es
a n d h is h ea r in g t est im on y r ega r din g docu m en t s h e
cla im ed t o h a ve r ea d. D.E . 837 a t 4. Th e gove r n m en t
a lso poin t s ou t t h a t Slon e t est ified a t t h e h ea r in g t h a t
h e h a d lied u n der oa t h , u n pr om pt ed, a t his
r ea r r a ign m en t h ea r in g. Id . a t 4-5. Eit h er Slon e wa s
u n t r u t h fu l u n der oa t h a t h is r ea r r a ign m en t , or h e wa s
u n t r u t h fu l u n der oa t h a t t h e eviden t ia r y h ea r in g on h is
§ 2255 m ot ion . F u r t h er , Slon e t est ified t o a h ist or y of
lyin g, in clu din g lyin g t o doct or s t o obt a in pr escr ipt ion s
a s pa r t of t h e dr u g con spir a cy. D.E . 824 a t 49 -50.
Ba sed on Slon e’s la ck of ca n dor wit h t h e Cou r t ,
t h e gover n m en t n ow u r ges t h e Cou r t t o con sider
im posin g Ru le 11 sa n ct ion s a ga in st Slon e, su ch a s
st r ikin g fr om t h e r ecor d a ll h is eviden t ia r y h ea r ing
t est im on y a n d h is swor n a ffida vit s. D.E . 837 a t 7.

7a

Slon e’s la ck of cr edibilit y t ha t wa s eviden t a t t he
eviden t ia r y h ea r in g is r eleva n t t o t h e issu es discu ssed
below.
Aft er t h e J u ly 2017 eviden t ia r y h ea rin g, Mr .
Gu a r n ier i filed a m em or a n du m on Slon e’s beh a lf. D.E.
830 (sea led m em or a n du m ); D.E . 832 (r eda ct ed
m em or a n du m ). On Sept em ber 8, 2017, t h e gover n m en t
filed a r espon se, a n d t h e m ot ion beca m e r ipe for
decision . D.E . 836 (sea led m em or a n du m ); D.E . 837
(r eda ct ed m em or a n du m ).
F or t h e r ea son s t h a t follow, t h e u n der sign ed
RE COMME NDS t h a t Slon e’s § 2255 m ot ion (D.E . 747)
be DE NIE D on t h e m er it s.
II. Le g a l S ta n d a rd s
Un der 28 U.S.C. § 2255, a feder a l pr ison er m a y
seek h a bea s r elief beca u se a sen t en ce viola t es t h e
Con st it u t ion or feder a l la w, t h e feder a l cou r t la cked
ju r isdict ion t o im pose su ch a sen t en ce, or t h e sen t en ce
exceeds t h e m a xim um a u t h or ized by la w. 28 U.S.C. §
2255.
To pr eva il on a § 2255 m ot ion a lleging
con st it u t ion a l er r or , a defen da n t m u st est a blish t h a t
t h e er r or h a d a “su bst a n t ia l a n d in ju r iou s effect or
in flu en ce on t h e pr oceedin gs.” Watson v. Un ited S tates,
165 F .3d 486, 488 (6t h Cir . 1999) (cit ing B rech t v.
Abrah am son , 507 U.S. 619, 637 (1993)). A § 2255
m ova n t bea r s t h e bu r den of pr ovin g h is or h er
a llega t ion s by a pr epon der a n ce of t h e eviden ce.
M cQu een v. Un ited S tates, 58 F . App’x 73, 76 (6t h Cir .
2003) (per cu r ia m ).

Th e Cou r t r ecogn izes t h a t , except in r ega rd t o t h e
issu es cover ed in t h e eviden t ia r y h ea r in g, Slon e is
pr oceedin g pro se, wit h ou t t h e a ssist a n ce of a n
a t t or n ey. Th e Cou r t con st r u es pro se m ot ion s m or e
len ien t ly t h a n ot h er m ot ion s. Castro v. Un ited S tates,
540 U.S. 375, 381-83 (2003); Fran k lin v. R ose, 765 F .2d
82, 85 (6t h Cir . 1985). A docu m en t filed pro se is t o be

8a

liber a lly con st r u ed. E rick son v. Pard u s, 551 U.S. 89, 94
(2007).

Slon e a lleges viola t ion s of h is Sixt h Am en dm en t
r igh t t o effect ive a ssist a n ce of cou n sel. D.E. 747 a t 4, 5,
7, 10 (“[A]ll issu es r ela t e t o m y a t t or n eys fa ilin g t o
pr ovide t h e effect ive a ssist a n ce of cou n sel.”).
To
su ccessfu lly a sser t a n in effect ive-a ssist a n ce-of-cou n sel
cla im , a defen da n t m u st pr ove bot h deficien t
per for m a n ce a n d pr eju dice. S trick lan d v. Wash in gton ,
466 U.S. 668, 687 (1984); Pou gh v. Un ited S tates, 442
F .3d 959, 964 (6t h Cir . 2006). To pr ove deficien t
per for m a n ce, a defen da n t m u st sh ow t h a t “cou n sel
m a de er r or s so ser iou s t h a t cou n sel wa s n ot fu n ct ion in g
a s t h e ‘cou n sel’ gu a r a n t eed t h e defen da n t by t h e Sixt h
Am en dm en t .”
S trick lan d , 466 U.S. a t 687.
A
defen da n t m eet s t h is bu r den by sh owin g “t h a t cou n sel’s
r epr esen t a t ion fell below a n object ive st a n da r d of
r ea son a blen ess” a s m ea su r ed u n der “pr eva iling
pr ofession a l n or m s” a n d eva lu a t ed “con sider in g a ll t he
cir cu m st a n ces.” Id . a t 688.
H owever , a r eviewin g cou r t m a y n ot secon d gu ess t r ia l cou n sel’s st r a t egic decision s.
M oss v.
H ofbau er, 286 F .3d 851, 859 (6t h Cir . 2002). Th u s, “a
cou r t m u st in du lge a st r on g pr esu m pt ion t h a t cou n sel’s
con du ct fa lls wit h in t h e wide r a n ge of r ea son a ble
pr ofession a l a ssist a nce; t h a t is, t h e defen da n t m u st
over com e
the
pr esu m pt ion
that,
u n der
the
cir cu m st a n ces, t h e ch a llen ged a ct ion m igh t be
con sider ed sou n d t r ia l st r a t egy.” S trick lan d , 466 U.S.
a t 689 (in t er n a l qu ot a t ion s om it t ed).
“A fa ir
a ssessm en t of a t t or n ey per for m a n ce r equ ir es t h a t every
effor t be m a de t o elim in a t e t h e dist or t in g effect s of
h in dsigh t , t o r econ st r u ct t h e cir cu m st a n ces of cou n sel’s
ch a llen ged con du ct , a n d t o eva lu a t e t h e con du ct fr om
cou n sel’s per spect ive a t t h e t im e.” Id .

9a

In or der t o pr ove pr eju dice, a defen da n t “m u st
sh ow t h a t t h er e is a rea son a ble pr oba bilit y t h a t , bu t for
cou n sel’s u n pr ofession a l er r or s, t h e r esu lt of t h e
pr oceedin g wou ld h a ve been differ en t .” S trick lan d , 466
U.S. a t 694. Th u s, “[a ]n er r or by cou n sel, even if
pr ofession a lly u n r ea son a ble, does n ot wa rr a n t set t ing
a side t h e ju dgm en t of a cr im in a l pr oceedin g if t h e er r or
h a d n o effect on t h e ju dgm en t .” Id . a t 691. Wh en
eva lu a t in g pr eju dice, cou r t s gen er a lly m u st con sider
t h e “t ot a lit y of t h e eviden ce.” S trick lan d , 466 U.S. a t
695. Cou r t s m a y a ppr oa ch t h e S trick lan d a n a lysis in
a n y or der , a n d a n in su fficien t sh owin g on eit h er pr on g
en ds t h e in qu ir y.
Id . a t 697.
To sh ow pr eju dice in t h e guilt y-plea con t ext , a
m ova n t
“m u st sh ow t h a t t her e is a r ea son a ble
pr oba bilit y t h a t , bu t for cou n sel’s er r or s,
h e wou ld n ot h a ve plea ded gu ilt y a n d
in st ea d wou ld h a ve in sist ed on goin g t o
t r ia l. . . . [W]h er e t h e a lleged er r or of
cou n sel is a fa ilur e t o a dvise t h e
defen da n t of a pot en t ia l a ffir m a t ive
defen se t o t h e cr im e ch a r ged, t h e
r esolu t ion of t h e ‘pr eju dice’ in qu ir y will
depen d la r gely on whet h er t h e a ffir m a t ive
defen se likely would h a ve su cceeded a t
t r ia l.”
H od ges v. Colson , 727 F .3d 517, 534 (6t h Cir . 2013)
(qu ot in g H ill v. L ock h art, 474 U.S. 52, 59 (1985)), cert.
d en ied su b n om . H od ges v. Carpen ter, 135 S. Ct . 1545
(2015), reh ’g d en ied , 135 S.
Ct . 2345 (2015). To sh ow pr eju dice in t h e sen t en cin g
con t ext , a m ova n t m u st est a blish t h a t h is “sen t en ce
wa s in cr ea sed by t h e deficien t per for m a n ce of h is
a t t or n ey.” S pen cer v. B ook er, 254 F . App’x 520, 525
(6t h Cir . 2007) (cit in g Glover v. Un ited S tates, 531 U.S.
198, 200 (2001)).

10a

III. Th e Va lid ity o f S lo n e ’s P le a a n d Alle g e d F a ls e
P ro m is e s
Slon e ch a llenges t h e va lidit y of his bin ding plea
a gr eem en t a n d guilt y plea . H e a lleges h is cou n sel wer e
in effect ive for m islea din g h im a bou t h is plea . He
a r gu es t h a t cou n sel coer ced h im in t o plea din g guilt y by
m a kin g fa lse pr om ises, by let t in g h im sit in ja il t oo
lon g, a n d by hidin g t h e t er m s of t h e a greem en t fr om
h im . S ee D.E . 747 a t 5, 7; D.E . 747-1 a t 6-7; D.E . 786 a t
5, 16, 21. In pa r t icu la r , Slon e ch a llen ges h is colla t er a la t t a ck wa iver . D.E . 786 a t 16. H is t heor y is t h a t ,
despit e t h e 25-yea r sen t en ce pr ovided by t h e bin ding
plea a gr eem en t , h is plea wa s n ot kn owin g a n d
volu n t a r y beca u se beh in d t h e scen es h is a t t or n eys
pr om ised a m u ch lower sen t en ce if h e cooper a t ed wit h
t h e gover n m en t . As a lr ea dy n ot ed, Slon e’s t est im on y a t
t h e eviden t ia r y h ea r in g con t r a dict ed h is br iefs a n d
a ffida vit s. His cla im s in h is § 2255 m ot ion a r e n ot
cr edible, a n d h e sh ou ld be bou n d t o h is swor n
st a t em en t s a t his plea colloqu y. Slon e’s speedy t r ia l
r igh t s will be discu ssed in a la t er sect ion .
If don e kn owin gly a n d volu n t a r ily, a cr im in a l
defen da n t m a y, by t h e t er m s of t h e plea a gr eem en t ,
wa ive h is r igh t t o file a dir ect a ppea l a n d h is r igh t t o
colla t er a lly a t t a ck h is con vict ion a n d sen t en ce u n der §
2255. Davila v. Un ited S tates, 258 F .3d 448, 450-51
(6t h Cir . 2001). A pr ison er m a y ch a llen ge t h e va lidit y
of su ch a wa iver on t h e ba sis t h a t “h is plea wa s n ot
kn owin g or volu n t a r y, or wa s t h e pr odu ct of in effect ive
a ssist a n ce of cou n sel.” In re Acosta, 480 F .3d 421, 422
(6t h Cir . 2007).
F eder a l Ru le of Cr im in a l P r ocedu r e 11 gover n s
plea colloqu ies. Th e Ru le is m ea n t t o en su r e t h a t t he
dist r ict cou r t is sa t isfied t h a t a gu ilt y plea is m a de
kn owin gly, volu n t a r ily, a n d in t elligen t ly. Un ited S tates
v. Webb, 403 F .3d 373, 378 (6t h Cir . 2005). Ru le 11
r equ ir es t h e Cou r t t o ver ify “t h a t t h e defen da n t
u n der st a n ds h is or h er a pplica ble con st it u t ion a l r igh t s,
t h e n a t u r e of t h e cr im e ch a r ged, t h e con sequ en ces of

11a

t h e gu ilt y plea , a n d t h e fa ct u a l ba sis for con clu din g t h a t
t h e defen da n t com m it t ed t h e cr im e ch a rged.” Id . a t
378-79. Wh en t h e Dist r ict Cou r t “h a s scr u pu lou sly
followed t h e r equ ir ed pr ocedu r e” du r in g a plea colloqu y,
“t h e defen da n t is bou n d by h is st a t em en t s in r espon se
t o t h a t cou r t ’s in qu ir y.” R am os v. R ogers, 170 F .3d 560,
563 (6t h Cir . 1990) (qu ot in g B ak er v. Un ited S tates, 781
F .2d 85, 90 (6t h Cir . 1986)). Accor din gly, in ca ses
wh er e t h e cou r t h a s followed Ru le 11’s pr ocedu r a l
r equ ir em en t s, “a bsent ext r a or din a r y cir cu m st a n ces, or
som e expla n a t ion of wh y defen da n t did n ot r evea l ot h e r
t er m s, a t lea st wh en specifica lly a sked t o do so by t he
cou r t , a d efen d an t’s plea agreem en t con sists of th e term s
revealed in open cou rt .” Id .

A. S lo n e ’s Alle g a tion s a n d His P le a Co llo qu y .
Slon e h a s n ot poin t ed t o a ny pu r por t ed Ru le 11
defect . H owever , t h e filin gs r ela t ed t o t h e m ot ion
cr ea t ed a fa ct u a l dispu t e r ega r din g wh et h er Mr . St or m
coa ch ed Slon e in t o pr ovidin g fa lse a n swer s t o t h e
Cou r t . Slon e a lleges in h is m ot ion t ha t cou n sel m isled
h im in t o believin g t h a t h e wou ld r eceive a five -yea r
sen t en ce, despit e t h e clea r la n gu a ge of h is bin din g plea
a gr eem en t t h a t h is sen t en ce wou ld be 25 yea r s. D.E.
747-1 a t 6-7; D.E . 747-7 a t 6. Slon e st a t es t h a t h e n ever
sa w h is plea a gr eem en t or h a d it expla in ed t o h im pr ior
t o h is a ppea r a n ce a t h is r ea r r a ign m en t h ea r in g. D.E.
786 a t 18-21.
Slon e st a t es in h is first a ffida vit , “Mr . St orm t old
m e t h a t if I’d a dm it t o bein g pr esen t wh en Da vie
Spa r km a n a n d Keish a Sext on wer e killed, t h a t h e’d get
m y m ot or cy[c]les ba ck a n d be a ble t o t a lk t h e ju dge in t o
on ly givin g m e five-yea r s, even if I sign ed a plea
a gr eem en t for t wen t y t o t wen t y-five yea r s.” D.E . 747-1
a t 6. Slon e’s a ffida vit a lso a lleges t h a t “Mr . P in a les h a d
t old m e h e wou ld get m e five-yea r s, n o m or e t h a n t en,
so I t h ou gh t Mr . St or m wa s t ellin g m e t h e t r u t h .” Id . a t
7; see also D.E . 747-7 a t 6. Addit iona lly, Slon e’s

12a

a ffida vit st a t es t h a t Mr . St or m “led m e t o believe t h a t
t h e gover n m en t dr opped t h e dr u g ch a r ges. I do n ot
r eca ll a n y m en t ion of t h e dr u g ch a r ges wh en I pled
gu ilt y.” D.E . 747-1 a t 7.
H owever , t h ese a llega t ion s con t r a dict Slon e’s
st a t em en t s a t h is plea colloquy. At t h a t hea r in g, Slone
st a t ed u n der oa t h t h a t h e wa s offer ed n o pr om ises
beyon d t h e t er m s of t h e plea a gr eem en t a n d t h a t he
u n der st ood h is a gr eed sen t en ce a n d h is wa iver of h is
a ppella t e a n d colla t era l a t t a ck r igh t s. S ee D.E . 782 a t
13-14, 18, 22-23, 26, 31-32.
At t h e r ea r r a ign m en t h ea r in g, Slon e’s a t t or n ey
Ms. Cr ou se expla in ed t h a t sh e a n d Mr . St or m “h a ve
spen t a lot of t im e wit h h im discu ssin g t h is plea . H ou r s
a n d h ou r s a n d h ou r s.” D.E . 782 a t 11. Wh ile being
qu est ion ed by J u dge Th a pa r , Slon e st a t ed t h er e wer e
n o lin gerin g qu est ions in h is m in d a bou t t h e plea or t h e
r ea r r a ign m en t pr ocess. Id . a t 13. J u dge Th a pa r t old
h im , “t h is is a bin ding plea a gr eem en t ,” a n d t h a t “if I
a ccept you r plea a gr eem en t , I h a ve t o sent en ce you t o
300 m on t h s.” Id . Slon e sa id h e u n der st ood t h is. Id.
As t h e plea a gr eem en t st a t es, “Th e Defen da n t ’s
sen t en ce of im pr ison m en t sh a ll be 300 m on t h s.” D.E .
635 a t 3 ¶ 6(a ). J udge Th a pa r expla in ed t h a t , if h e
r eject ed t h e plea a n d Slon e wen t t o t r ia l, he cou ld fa ce a
m a xim u m or m inim um life sen t en ce, depen d in g on t h e
pr oof. D.E . 782 a t 14. La t er in t h e colloqu y, J u dge
Th a pa r a ga in t old Slon e, “if I a ccept you r plea
a gr eem en t , I sen t en ce you t o 300 m on t h s.” Id . a t 18.
Aga in , Slon e sa id h e u n der st ood. Id .
J u dge Th a pa r ca lled Slon e’s a t t en t ion t o t h e
wa iver pr ovision a t pa r a gr a ph seven of t h e plea
a gr eem en t . D.E . 782 a t 22-23. H e a sked, “Do you a lso
u n der st a n d you ’r e wa ivin g you r r igh t t o colla t er a lly
a t t a ck t h e guilt y plea , con vict ion a n d sen t en ce, except
for in effect ive a ssist a n ce of cou n sel?” Id . a t 22. H e t old
Slon e t h a t h e wa s wa ivin g h is r igh t “t o ba sica lly a ppea l
a n yt h in g I do or a n yt h in g t h a t occu r s h er e,” a n d “t h a t it
wou ld be a lm ost im possible t o sh ow in effect ive
a ssist a n ce of cou n sel in t h is ca se.” Id . a t 22-23. Slone
st a t ed h e u n der st ood. Id .

13a

Th e followin g con ver sa t ion occu r r ed:

TH E COURT: Mr . Slon e, did Miss Cr ou se a n d
you r ot h er a t t or n eys discu ss wit h you a ll of
t h e plea n egot ia t ion s?
TH E DE F E NDANT: Yes.
TH E COURT: Did t hey go over ever yt hing wit h
you ?
TH E DE F E NDANT: Yes.
TH E COURT: Did t h ey go over t h is plea
a gr eem en t wit h you ?
TH E DE F E NDANT: Yes.
TH E COURT: You a gr ee t his t h e m ost
fa vor a ble plea offer you ’ve r eceived fr om t h e
gover n m en t ?
TH E DE F E NDANT: Yes.
Id . a t 22. Slon e t old J u dge Th a pa r t h a t n o on e h a d
“m a de a n y ot h er or differ en t pr om ise of a n y kin d” t o get
h im t o plea d gu ilt y. Id . a t 26. H e a greed t h a t h is
decision t o plea d gu ilt y wa s h is “own fr ee a n d volu n t a ry
a ct .” Id . a t 32.
J u dge Th a pa r dou bled down on t h e qu est ion of
wh et h er Slon e u n der st ood t h a t his sen t en ce wou ld be
25 yea r s:
TH E COURT: Oka y. Aside fr om t h e plea
a gr eem en t which we ju st discu ssed, h a s
a n y per son , in clu ding a n officer or a gen t
of t h e gover n m en t or a n y of t h e la wyer s in
t h is ca se, pr om ised or even su ggest ed t h a t
you will r eceive a sen t en ce differ en t t h a n
300 m on t h s, ot h er t h a n wh a t we t a lked

14a

a bou t a t t h e ben ch , bu t ot h er t h a n —t h e
plea a gr eem en t is t he on ly pr om ise of a
sen t en ce, a n d t h is su pplem en t , cor r ect ?
TH E DE F E NDANT: Cor r ect .
TH E COURT: Th er e’s n o ot h er pr om ises?
TH E DE F E NDANT: No, sir .
D.E . 782 a t 31.
Th e dr u g con spir a cy ch a r ges wer e a lso discu ssed in
det a il du r in g t h e plea colloqu y. D.E . 782 a t 24, 32 -37.
Slon e, u n der oa t h , clea r ly st a t ed t h a t h e kn ew
h is sen t en ce wou ld be 300 m on t h s a n d a ffir m ed t h a t n o
on e h a d pr om ised h im a n y ot h er sen t en ce. H e a lso
a dm it t ed t h e fa ct s of t h e dr u g con spir a cy. H is cu r r en t
pr ot est a t ion s t o t h e con t r a r y a r e u n su bst a n t ia t ed by
t h e r ecor d.
Accor din gly, Slon e h a s n ot pr oven t ha t a n y a spect of h is
plea wa s in va lid.
Slon e r et or t s in h is m ost r ecen t a ffida vit t h a t he
wa s r espon din g t o J u dge Th a pa r ’s qu est ion s a t h is
r ea r r a ign m en t “a s in st r u ct ed by Mr . St or m , in
a n t icipa t ion of r eceivin g five yea r s.” D.E . 786 a t 17. H e
“su bm it s t h a t Br a n don St or m coa ch ed h im in t o sa ying
wh a t h e did du r in g t h e plea colloqu y.” Id . a t 19. On
t h is poin t , t h e Su pr em e Cou r t h a s in st r u ct ed t h a t
“m isu n der st a n din g, du r ess, or m isr epr esen t a t ion by
ot h er s” m a y r en der in va lid a plea colloquy t ha t
ot h er wise a ppea r s pr oper ly con du ct ed. B lack led ge v.
Allison , 431 U.S. 63, 75 (1977).
Accor din gly, t his cla im wa s a ddr essed a t t he
eviden t ia r y h ea r in g.
B . Te s tim o n y a t th e Ev id e n tia ry He a rin g
Slon e, wh o wa s t h e fir st wit n ess a t t h e hea r in g,
t est ified t h a t h e kn ew t h e plea a gr eem ent ca lled for a

15a

25-yea r sen t en ce. D.E . 825 a t 34. H owever , h e t est ified
h e believed t h a t “beh in d t h e plea ” t her e wa s a n
a gr eem en t t h a t h e wou ld r eceive five t o t en ye a r s if h e
h elped t h e gover nm en t ca pt u r e t h e t wo a ct u a l
per pet r a t or s of t h e m u r der s. Id . a t 34-35. Slon e
t est ified t h a t h e m et t wice wit h t h e gover n m en t a ft er
plea din g gu ilt y, bu t t h a t n o m ot ion t o r edu ce h is
sen t en ce wa s ever filed. Id . a t 36-37. Slone t est ified a t
t h e h ea r in g t h a t h e wa s “a n in n ocen t pa r t y” t o t h e
m u r der s a n d wa s ignor a n t of t h e m u r der ou s in t en t ion s
of t h e t wo m en wh o set u p t h e fa t a l m eet in g a t t he
a ba n don ed coa l m in e. Id . a t 38-39. Slon e t est ified t h a t
h e n ever r ea d t h e plea a gr eem en t n or h a d it r ea d t o
h im , bu t t h a t h e u n der st ood h e wa s a gr eein g on pa per
t o a 25-yea r sen t en ce. D.E . 824 a t 41.

On dir ect exa m in a t ion , Slon e wa s a sked wh et h er
Mr . St or m h a d in st r u ct ed h im t o lie t o t h e Cou r t a t h is
plea colloqu y. D.E . 824 a t 43. Slon e t est ified t h a t h e
h a d n ot . Id . a t 43, 67-68. H e cla r ified t ha t n o on e h a d
t old h im t o lie a t his plea colloqu y. Id . a t 67-68. Slone
t est ified t h a t St or m h a d m er ely in st r u ct ed h im t o “keep
ever yt h in g sh or t , sim ple, yes, sir , n o, sir ” du r in g t he
plea h ea r in g. Id . a t 42. To expla in t h e cla im m a de in
h is § 2255 m ot ion t ha t h e wa s in st r u ct ed t o lie, Slone
t est ified t h a t a fellow in m a t e ha d wr it t en h is § 2255
m ot ion , m em or a n da , a n d a ffida vit s. Id . a t 44, 50-51,
55-56. Slon e st a t ed t h a t h is gh ost wr it er m u st h a ve
m isu n der st ood h im if h e wr ot e t h a t Mr . St or m h a d
in st r u ct ed Slon e t o lie. Id . a t 44. Accor din gly, Slon e’s
own t est im on y a t t he h ea r in g con t r a dict ed h is swor n
filin gs on t his issu e. Con sequ en t ly h e wit h dr ew a n y
a llega t ion t h a t Mr . St or m h a d coa ch ed h im t o m a ke
fa lse st a t em en t s t o t he Cou r t .
Mr . St or m likewise t est ified t h a t h e did n ot coa ch
Slon e in t o pr ovidin g in a ccu r a t e a n swer s a t h is plea
colloqu y. D.E . 824 a t 168. Mr . St or m den ied t elling
Slon e du r in g t h e fina l plea n egot ia t ion s t ha t t h er e wa s
a possibilit y h e cou ld r eceive a five-t o-t en -yea r sen t en ce

16a

u n der t h e plea a gr eem en t . Id . a t 168, 203-04. Mr .
St or m did r eca ll t ellin g Slon e t h a t t h e gover n m en t
cou ld file a m ot ion for a five-yea r red u ction of Slon e’s
sen t en ce if h e pr ovided su bst a n t ia l a ssist a n ce. D.E .
825 a t 174. H e r eca lled t h a t t h e sea led su pplem en t t o
t h e plea a gr eem en t in dica t ed t h a t Slon e cou ld r eceive a
r edu ct ion of u p t o five yea r s for su bst a n t ia l a ssist a n ce,
a n d t h a t t h is wa s a negot ia t ed t er m of t h e su pplem en t .
Id . a t 170-75.
“Solem n decla r a t ion s in open cou r t ca r r y a st r on g
pr esu m pt ion of ver it y. Th e su bsequ en t pr esen t a t ion of
con clu sor y a llega t ion s u n su ppor t ed by specifics is
su bject t o su m m a r y dism issa l.” B lack led ge v. Allison ,
431 U.S. 63, 74 (1977); see also E lzy v. Un ited S tates,
205 F .3d 882, 886 (6t h Cir . 2000) (findin g t h a t a
con clu sor y st a t em en t is in su fficien t t o r a ise t h e issu e of
in effect ive a ssist a n ce of cou n sel). Now t ha t Slon e h a s
wit h dr a wn h is a llega t ion t h a t h e wa s coa ch ed in t o
m islea din g t h e Cou r t , h e pr es en t s n o “specifics” t o
su ppor t h is ot h er wise “con clu sor y a llega t ion s” t h a t h is
plea wa s n ot kn owing a n d volu n t a r y on t h e ba sis t h a t
h e a n t icipa t ed a lower sen t en ce. B lack led ge, 431 U.S.
a t 74. An d, his cla im t h a t h e did n ot see t h e plea
a gr eem en t befor e his r ea r r a ign m en t is n ot cr edible. He
h a s n ot sh own t h a t h is plea wa s in va lid.

Slon e a lso h a s n ot shown in effect ive a ssist a n ce of
cou n sel in r ega r d t o t h is issu e. H e ca n n ot n ow fa ult
cou n sel for m a kin g fa lse pr om ises wh en h e disa vowed
a t h is plea colloqu y t h a t su ch pr om ises exist ed. H is
swor n st a t em en t s a t t h e h ea r in g con t r a dict h is
u n su ppor t ed a sser t ion s t h a t cou n sel pr om ised h im a
five-yea r sen t en ce a n d fa iled t o in for m h im of his
a ppea l a n d colla t er a l a t t a ck wa iver s. Slon e’s swor n
st a t em en t s a t h is r ea r r a ign m en t con t r a dict t h e
selfser vin g cla im s in h is a ffida vit , t h u s sa ppin g t h eir
cr edibilit y.

17a

C. Th e P ote n tia l De fe n s e
Slon e m a kes a n a ddit ion a l a r gu m en t t h a t h is
gu ilt y plea wa s inva lid beca u se h is cou nsel fa iled t o
in for m h im of t h e exist en ce of t h e possible defen se t h a t
will be discu ssed su bst a n t ively in t h e n ext sect ion.
St a t ed br iefly, t h e pr osecu t ion ’s t h eor y wa s t h a t Slone
com m it t ed or fa cilit a t ed t h e m u r der s ba sed on h is
m istak en belief t h a t t h e vict im s wer e cooper a t in g wit h
la w en for cem en t . Slon e n ow a r gu es t h a t a n ecessa r y
elem en t of t h e m u rder ch a r ge u n der 18 U.S.C. §
1513(a )(1)(B) is t h a t t h e vict im s wer e actu ally
in for m a n t s.
Slon e a lleges t ha t h is a t t or n eys fa iled t o a lert
h im t o t h e exist ence of t h is possible m er it or iou s
defen se, a n d t h a t if t h ey h a d, h e wou ld n ot h a ve
plea ded gu ilt y. Mr . St or m ’s a ffida vit st a t es t h a t h e a nd
Ms. Cr ou se “a dvised Mr . Slon e t h a t we h a d t his
pot en t ia l Ru le 29 a r gu m en t a n d t ha t h e m a y ha ve been
ch a r ged u n der t h e wr on g st a t u t e.” D.E . 778 -3 a t 12.
Ms. Cr ou se m a kes t h e sa m e cla im . D.E . 778-4 a t 2. In
r espon se, Slon e a lleged in h is secon d a ffida vit t ha t “no
a t t or n ey ever expla ined a n yt h ing a bou t ” su ch a defen se
or t h e possible r a m ifica t ion s of filin g a m ot ion ba sed on
t h is defen se. D.E . 786 a t 18-19. At t h e J u ly 7, 2017
eviden t ia r y h ea r in g, Slon e t est ified t h a t h e h a d n o
r ecollect ion of cou n sel expla in ing t h ese m a t t er s. D.E.
824 a t 44-45. H e t est ified t h a t h e wou ld n ot h a ve
plea ded gu ilt y t o t h e m u r der cou n t s if h e h a d kn own of
t h is issu e con cer n in g t h e vict im s’ a ct u a l ver su s believed
cooper a t ion .

Id . a t 45-46.
As expla in ed pr eviou sly, Mr . Slon e’s t est im on y in
h is a ffida vit s a n d a t t h e 2017 eviden t ia r y h ea r in g is n ot
cr edible. In con t r a st , despit e bein g sepa r a t ed, Mr .
St or m a n d Ms. Cr ou se t est ified con sist en t ly wit h ea ch
ot h er a n d wit h t h eir a ffida vit s t h a t t h ey expla in ed t o

18a

Slon e pr ior t o h is gu ilt y plea t his possible defen se a n d
it s pot en t ia l r a m ifica t ion s. D.E . 824 a t 140, 14445, 155,
166, 192-93, 198-200. Th e Cou r t t h er efor e fin ds t h a t
Slon e’s a t t or n eys did, in fa ct , discu ss wit h h im pr ior t o
h is gu ilt y plea t h e pot en t ia l defen se (t h a t § 1513
r equ ir es t h a t t h e vict im s be a ct u a l in for m a n t s) a n d t he
possible pit fa lls of r a isin g t h a t defen se.
Beca u se t h e colla t er a l a t t a ck wa iver in Slon e’s
plea a gr eem en t is va lid, a n d beca u se it lim it s h is
colla t er a l a t t a ck r igh t s t o cla im s of in effect ive
a ssist a n ce of cou n sel, a n y of Slon e’s cla im s ba sed on
t h eor ies ot h er t h a n ineffect ive a ssist a n ce of cou n sel a r e
wa ived. F or exa m ple, t o t h e ext en t t h a t h e pr offer s a
con st it u t ion a l speedy t r ia l cla im or a cla im u n der t h e
Speedy Tr ia l Act , su ch a cla im is ba r r ed. S ee D.E . 747
a t 7. This issu e pr ovides n o ba sis for fin din g t ha t
Slon e’s plea wa s inva lid or t h a t cou n sel r en der ed
in effect ive a ssist a n ce.
It a lso bea r s n ot in g t h a t t h e va lidit y of Slon e’s
plea a gr eem en t u n der cu t s h is cu r r en t pr ot est a t ion s of
a ct u a l in n ocen ce t o t h e m u r der s. “[A] cou n seled plea of
gu ilt y is a n a dm ission of fa ct u a l gu ilt so r elia ble t h a t ,
wh er e volu n t a r y a n d in t elligen t , it qu it e va lidly
r em oves t h e issu e of fa ct u a l guilt fr om t h e ca se.”
M en n a v. N ew Y ork , 423 U.S. 61, 62 n .2 (1975).

Th e Cou r t n ow t u r n s t o Slon e’s ot h er in effect ivea ssist a n ce-of-cou n sel cla im s.
IV. Wa s Co u n s e l In e ffe c tiv e Re g a rd in g S u bje c t
Ma tte r J u risd ic tion ?
Slon e a r gu es t ha t t h e Cou r t la cked su bject m a t t er
ju r isdict ion over t h e m u r der ch a r ges, a n d t h a t h is
cou n sel wa s in effect ive for n ot a dequ a t ely pu r su in g t h is
defen se. D.E . 747 a t 4.
In a ddit ion t o t h e oxycodon e con spir a cy ch a r ge, Slon e
plea ded gu ilt y t o t wo cou n t s of killin g in r et a lia t ion
a ga in st a n in for m a n t . D.E . 635 a t 1. Th e r eleva nt

19a

st a t u t e cr im in a lizes killin g or a t t em pt in g t o kill
“a n ot h er per son wit h in t en t t o r et a lia t e a ga in st a ny
per son for . . . pr ovidin g t o a la w en for cem en t officer
a n y in for m a t ion r ela t in g t o t h e com m ission or possible
com m ission of a F eder a l offen se[.]”
18 U.S.C. §
1513(a )(1)(B).
Th e wr in kle in t h is ca se is t h a t t h e vict im s,
Spa r km a n a n d Sext on , wer e n ot a ct u a lly in for m a n t s.
As Mr . St or m expla in s in h is a ffida vit , “The
Gover n m en t h a d pr eviou sly expla in ed t o Defen se
Cou n sel t h a t t h e vict im s wer e n ot in for m a n t s, a n d t h a t
it s t h eor y of t h e ca se wa s t h a t Mr . Slone killed t h e
vict im s beca u se h e believed t h ey wer e in for m a n t s.”
D.E . 778-3 a t 11 (em ph a sis a dded). Th is t h eor y is
ech oed in t h e fa ct u a l a dm ission in Slon e’s plea
a gr eem en t . It st a t es, “Aft er t h e DE A’s sea r ch on J u n e
25, 2012, t h e Defen da n t con spir ed a n d a gr eed wit h
ot h er s t o kill Da vey Spa r km a n a n d Keish a Sext on in
r et a lia t ion for t h eir believed cooper a t ion wit h la w
en for cem en t .” D.E . 635 a t 3 ¶ 5(c) (em ph a sis a dded).
Slon e’s a r gu m en t is t h a t , a s a n ecessa r y elem en t of §
1513(a )(1)(B), t h e gover n m en t wou ld h a ve h a d t o pr ove
a t t r ia l t h a t t h e vict im s a ct u a lly pr ovided in for m a t ion
t o a feder a l la w en for cem en t officer —a m er e belief t ha t
t h e vict im s wer e in for m a n t s wou ld fa il t o sa t isfy t h is
st a t u t or y elem en t . D.E . 747 a t 4; D.E . 747-7 a t 10. He
a r gu es t h a t a la ck of pr oof on t h is elem en t wou ld
depr ive t h e Cou r t of su bject m a t t er ju r isdict ion . S ee id .
H owever , Slon e poin t s t o n o a u t h or it y wh ich h olds t h a t
a m ist a ken belief t h a t t h e vict im wa s a n in for m a n t is
in a dequ a t e t o su ppor t a con vict ion .

Accor din g t o defen se cou n sel’s a ffida vit s a n d
t h eir t est im on y a t t he h ea r in g, t h ey in vest iga t ed t his
issu e. S ee D.E . 778-3 a t 11 (“[E ]xt en sive r esea r ch wa s
con du ct ed in t o t h e issu e of wh et h er a Defen da n t m u st
h a ve a ct u a l kn owledge of t h e vict im s’ cooper a t ion wit h
a F eder a l Agen t or if a belief t h a t t h e vict im s were
cooper a t in g wa s su fficien t .”); D.E . 778-4 a t 1 (“[W]e did

20a

ext en sive r esea r ch on t h e issu e of wh et h er a defen da n t
n eeds t o h a ve a ct u a l kn owledge of t h e vict im ’s
cooper a t ion . . . or if a belief t h a t t h e vict im s wer e
cooper a t in g wa s su fficien t .”); D.E .
824 a t 124-25, 182-84.
Th eir r esea r ch r evea led t h a t “[t ]h e ca se la w
a va ila ble a t t h e t im e wa s u n clea r .” D.E . 7783 a t 11;
accord D.E . 824 a t 124. Mr . St or m cit es Un ited S tates
v. J oh n son , 161 F . App’x 660, 661 (9t h Cir . 2005) a n d
Un ited S tates v. Den h am , 663 F . Su pp. 2d 561, 574
(E .D. Ky. 2009), a s exa m ples of r eleva n t a u t h or it ies
wit h con flict in g im plica t ion s. D.E . 778-3 a t 11.
Defen se cou n sel’s a n t icipa t ed st r a t egy wa s “t o
a r gu e in a Ru le 29 Mot ion t h a t t h e vict im s m u st h a ve
a ct u a lly spoken wit h a F eder a l Agen t for a Clien t t o be
gu ilt y of r et a lia t ion u n der 18 U.S.C. § 1513.” D.E . 778 3 a t 12; accord D.E . 824 a t 187. Th e defen se a lso
pr epa r ed a ju r y in st r u ct ion t h a t r equ ir ed “pr oof t h a t
t h e defen da n t kn ew t h e wit n ess/in for m a n t ga ve
in for m a t ion t o a feder a l la w en for cem en t officer ” t o
su ppor t t h e “specific in t en t ” elem en t . D.E . 778 -3 a t 12;
D.E . 617 a t 16 (pr oposed ju r y in st r u ct ion s). Accor din g
t o Mr . St or m , h e a nd Ms. Cr ou se expla in ed t o Slone
“t h a t we ha d t h is pot en t ia l Ru le 29 a r gu m en t ” a n d t h a t
Slon e m a y ha ve m ore pr oper ly been ch a r ged u n der 18
U.S.C. § 1512 (killing a pot en t ia l wit n ess t o “pr even t ”
cooper a t ion ). D.E . 778-3 a t 12.
Bu t cou n sel a ssessed t h a t t h ese t r ia l st r a t egies
wer e fr a u gh t wit h per il. Defen se cou n sel “did n ot wa n t
t o give t h e Un it ed St a t es a n oppor t u n it y t o a m en d or
su per sede t h e In dict m en t ” t o a dd a cou n t u n der § 1512.
D.E . 778-3 a t 12. An d, if Slon e su cceeded on a
t ech n ica lit y a t t r ia l, defen se cou n sel fea r ed h e wou ld
t h en fa ce a st a t e dou ble-m u r der pr osecu t ion . Id . In
ot h er wor ds, if Slone wer e t o “ga m ble on a Ru le 29
Mot ion ,” h e r isked a pot en t ia l life sen t en ce in feder a l
cou r t or dea t h sen t en ce in st a t e cou r t . Id . a t 13.
Slon e a r gu es t h a t
h is a t t or n eys a ct ed
u n r ea son a bly on t h is poin t ; t h e la w is clea r t h a t h e
cou ld n ot h a ve been con vict ed u n less t h e gover n m en t

21a

pr oved a ct u a l kn owledge (r a t h er t h a n m er e belief) t h a t
t h e vict im s h a d cooper a t ed wit h feder a l a u t h or it ies.
D.E . 786 a t 10; D.E . 832 a t 2, 4. H e poin t s t o Den h am
(D.E . 786 a t 6) a n d a few ot h er ca ses (D.E . 747 -7 a t 10,
13). Bu t n on e of t h ese ca ses clea r ly su ppor t s t h e
posit ion h e espou ses.
Den h am , wh ich Slon e’s a t t or n eys con su lt ed (D.E.
778-3 a t 11; D.E . 778-4 a t 1-2) con cer n s t h e sa m e
st a t u t e, bu t focu ses on a differ en t elem en t . Den h am ,
663 F . Su pp. 2d a t 562. As Ma gist r a t e J u dge Wier
fr a m ed t h e qu est ion , “Th e m a t t er befor e t h is Cou r t
con cer n s t h e specific in t en t elem en t a n d wh et h er t h a t
in t en t
in clu des
kn owledge
of
fed eral
officer
in volvem en t .” Id . a t 564. H e con clu ded, u n der a
“n a t u r a l r ea din g of t h e pla in la n gu a ge” of § 1513(b)(2),
t h a t t h e gover n m en t h a d t o pr ove t h e defen da n t ’s
“kn owledge of feder a l in volvem en t .”
Id .
St a t ed
differ en t ly, “Th e specific in t en t elem en t of a §
1513(b)(2) offen se r equ ir es t h e Gover n m en t t o pr ove
t h a t a defen da n t kn ew of t h e in volvem en t of a feder a l
officer .” Id . a t 574. Th is is a differ en t qu est ion fr om
wh et h er t h e defen da n t kn ew t h e vict im h a d cooper a t ed.
In t er est in gly, J u dge Wier n ot ed t h a t t h is essen t ia lelem en t qu est ion “is differ en t fr om ju r isdict ion it self.”
Id . a t 564 n .2. Th u s, Den h am is n ot pr ecisely on poin t .
It su ppor t s a “n a t u r a l r ea din g of t h e pla in la n gu a ge” of
t h e st a t u t e, bu t t h e ca se is n ot bin din g pr eceden t .
Slon e’s t r ia l a t t or n eys a lso exa m in ed t h e Nin t h
Cir cu it ’s u n pu blish ed J oh n son decision . D.E . 778-3 a t
11; D.E . 778-4 a t 1-2. In J oh n son , a divided pa n el
r ever sed a con vict ion for t h r ea t en in g t o r et a lia t e u n der
§ 1513(b)(2). J oh n son , 161 F . App’x a t 661. Th e Cou r t
focu sed on t h e elem en t t h a t r equ ir es t h a t “t he
r et a lia t ion m u st h a ve been m ot iva t ed by a belief t h a t
t h e per son pr ovided su ch in for m a t ion t o a law
en forcem en t officer.” Id . Th e pr oblem wa s t h a t t h e
per son t o wh om t he vict im wa s expect ed t o r ela y
in for m a t ion wa s a ju dge, a n d a ju dge is n ot a la w
en for cem en t officer . Id . a t 661-62. As wit h Den h am ,
J oh n son is n ot pr ecisely on poin t .

22a

Addit ion a lly, J on h n son is n ot bin din g a u t h or it y on t h is
Cou r t .
Slon e cit es a n u n pu blish ed Secon d Cir cu it opin ion
t h a t , like t h is ca se, con cer n s a gu ilt y plea t o §
1513(a )(1)(B). D.E . 747-7 a t 10 (cit in g Un ited S tates v.
Gjin i, 419 F . App’x 4, 5 (2d Cir . 2011)). On e of t h e
defen da n t s in t h a t ca se ch a llen ged t h e fa ct u a l ba sis for
t h e essen t ia l elem en t t h a t t h e per son wit h wh om t he
vict im cooper a t ed wa s a feder a l—a s opposed t o st a t e—
la w en for cem en t officer . Id . a t 6. Th e Cou r t fou n d t h a t
t h is elem en t wa s sa t isfied wh en t h e P r esen t en ce
In vest iga t ion Repor t in dica t ed t h a t t h e F BI a n d st a t e
police wer e con du ct in g a join t in vest iga t ion . Id . a t 7.
Th e focu s of Gjin i is sim ila r t o J oh n son . An d a ga in ,
n eit h er ca se is pr ecisely on poin t or bindin g on t his
Cou r t .
F in a lly, Slon e r elies on a New Yor k dist r ict cou r t ca se,
Ferru gia. D.E . 747-7 a t 13. Th e issu e in Ferru gia wa s
t h a t t h e vict im of t h e r et a lia t ion wa s a feder a l
pr osecu t or (t h ou gh n ot t h e pr osecu t or pr osecu t in g t h e
defen da n t ). Un ited S tates v. Ferru gia, 604 F . Su pp.
668, 675 (E .D.N.Y.), aff’d , 779 F .2d 36 (2d Cir . 1985).
Th e cou r t u ph eld t h e con vict ion on t h e ba sis t h a t t h e
vict im ’s st a t u s a s a feder a l pr osecu t or wa s ir r eleva n t .
Id . Aga in , t h e cou r t in Ferru gia wa s n ot t a sked wit h
a n swer in g t h e qu est ion t h a t Slon e r a ises, a n d t h e ca se
is n ot bin ding on t h is Cou r t .
Beca u se n on e of t h e ca ses Slon e cit es clea r ly
su ppor t h is posit ion , h e fa ils t o su fficien t ly est a blish
t h e pr em ise of h is in effect ive a ssist a n ce cla im —t h a t t he
vict im s h a d t o a ct ua lly be in for m a n t s t o sa t isfy §
1513(a )(1)(B). Th e Cou r t h a s seen n o ca se h oldin g t ha t
t h e vict im s m u st ha ve been a ct u a l in for m a n t s or t h a t a
m er e belief t h a t t h ey wer e cooper a t in g wit h feder a l la w
en for cem en t is in a dequ a t e. Th e Cou r t cou ld st op h er e
a n d fin d t h a t Slon e a ccor din gly fa ils t o prove deficien t
per for m a n ce. In light of S trick lan d ’s pr esu m pt ion t h a t
cou n sel pr ovided r ea son a ble a ssist a n ce, Slon e ca n n ot
pr ove h is la wyer s u n r ea son a bly bot ch ed t h is issue

23a

wh en n o pr eceden t befor e t h e Cou r t su ppor t s h is
t h eor y.
H owever , Slon e’s a r gu m en t s ca r r y a ddit ion a l fla ws.
On e fla w is Slon e’s decision t o fr a m e t h is issu e a s on e of
su bject m a t t er ju r isdict ion .
H e a r gu es t h a t “t h e
u n dispu t ed fa ct t h a t n eit h er vict im pr ovided
in for m a t ion t o la w en for cem en t a bou t a ny viola t ion of
feder a l la w m a de it a lega l qu est ion of su bject m a t t er
ju r isdict ion a n d n ot a fa ct qu est ion t o be pr oven a t
t r ia l.” D.E . 832 a t 5-6. H e a r gu es it wa s u n r ea son a ble
of h is a t t or n eys t o n ot ch a llen ge t h e Cou r t ’s
ju r isdict ion . Id . a t 7.
Th is t h eor y h in ges on wh et h er a ct u a l cooper a t ion
bet ween t h e vict im a n d feder a l la w en for cem en t is a n
essen t ia l elem en t of t h e cr im e. A la ck of pr oof of a n
essen t ia l elem en t of a feder a l cr im e is n ot a n issu e of
su bject m a t t er ju r isdict ion . Th e Secon d Su per sedin g
In dict m en t iden t ified a feder a l cr im e—m u r der of a n
in for m a n t in viola t ion of § 1513(a )(1)(B). D.E . 129 a t 2 3. An d 18 U.S.C. § 3231 gr a n t s t h e dist r ict cou r t s
“or igin a l ju r isdict ion . . . of a ll offen ses a ga in st t h e la ws
of t h e Un it ed St a t es.” If J u dge Th a pa r h a d even t u a lly
det er m in ed t h a t pr oof of a ct u a l cooper a t ion on t h e pa r t
of t h e vict im wa s a n essen t ia l elem en t of t h e cr im e,
t h en t h e r em edy wou ld h a ve been dism issa l or a cqu it t a l
in r ega r d t o t h ose ch a r ges. This is a ga r den va r iet y
su fficien cy-of-t h e-eviden ce issu e, n ot a defect in t h e
Cou r t ’s power t o issu e a ju dgm en t .

Su bject m a t t er ju r isdict ion is a r ed h er r in g in t h is ca se.
Th er e is m or e. E ven if J u dge Th a pa r ha d u lt im a t ely
gr a n t ed a ju dgm en t of a cqu it t a l on t h e ba sis of Slon e’s
t h eor y, a s h is a t t or n eys poin t ou t , t h er e wa s a r isk t h a t
t h is wou ld n ot h a ve en ded t h e m u r der pr osecu t ion
a ga in st Slon e. As h is t r ia l a t t or n eys expla in , t h ey wer e
con cer n ed t h a t if t h ey pr essed t h e “belief” issu e befor e
t r ia l, t h e gover n m en t cou ld h a ve obt a in ed a n ot h er
su per sedin g in dict m en t a n d exch a nged t h e §

24a

1513(a )(1)(B) ch a r ges wit h ch a r ges u n der a sim ila r
st a t u t e, 18 U.S.C. § 1512(a )(1). Alt h ou gh § 1513 dea ls
wit h retaliation a ga in st a cooper a t or ’s pr eviou s
in t er a ct ion wit h la w en for cem en t , § 1512(a )(1) dea ls
wit h violen ce fa sh ion ed t o preven t a cooper a t or ’s fu tu re
t est im on y. By it s t erm s, § 1512(a )(1) pu n ish es:
Wh oever kills or a t t em pt s t o kill a n ot h er per son ,
wit h in t en t t o—
(A) pr even t t h e a t t en da nce or t est im ony
of a n y per son in a n officia l pr oceedin g;
(B) pr even t t h e pr odu ct ion of a r ecor d,
docu m en t , or ot h er object , in a n officia l
pr oceedin g; or
(C) pr even t t h e com m u n ica t ion by a n y
per son t o a la w en for cem en t officer or
ju dge of t h e Un it ed St a t es of in for m a t ion
r ela t in g t o t h e com m ission or possible
com m ission of a F eder a l offen se or a
viola t ion of con dit ion s of pr oba t ion , pa r ole,
or r elea se pen din g ju dicia l pr oceedin gs[.]
18 U.S.C. § 1512(a )(1). Th e gover n m en t a r gu es t h a t ,
ju st a s t h e gover n m en t t h eor ized t h a t Slon e killed t he
vict im s t o r et a lia t e for t h eir believed pa st cooper a t ion ,
it cou ld ea sily h a ve a lso t h eor ized t h a t h e killed t h e
vict im s t o pr even t t heir cooper a t ion or t est im on y. D.E.
837 a t 10. Slon e a rgu es t h a t “a pr osecu t ion u n der §
1512 wa s n ot via ble given t h ese fa ct s,” bu t does n ot
a dequ a t ely expla in wh y. An d h e pr ovides n o a u t h or it y
su ggest in g t ha t t h e pr osecu t ion is for bidden fr om
a lt er in g it s t h eor y of t h e cr im e on ce a n in dict m en t is
issu ed.
Slon e’s a t t or n eys’ con cer n wa s a sen sible on e.
Risk exist ed t h a t a gr a n d ju r y cou ld h a ve fou n d bot h
t h a t Slon e killed t h e vict im s a s r et a lia t ion for believed
pa st cooper a t ion an d in or der t o pr even t fu t u r e
t est im on y. Eit h er t heor y fit s t h e fa ct u a l descr ipt ion in

25a

Slon e’s plea a gr eem en t . A cooper a t or r isks r et a lia t ion
for pa st a ct ion s a n d/or t o pr even t fu t u r e t est im on y. 1
Bot h in t en t ion s cou ld ea sily exist sim u lt a n eou sly.
Th u s, it wa s r ea sona ble for Slon e’s t r ia l a t t or n eys t o
fea r t h a t if t h ey pr essed t h e issu e of Slon e’s “belief,”
t h en t h e gover n m en t cou ld r epla ce t h e ch a r ge wit h one
u n der § 1512, wh ich ca r r ies t h e sa m e h a r sh pen a lt ies.
It wa s a lso r ea son a ble for defen se cou n sel t o a n t icipa t e
t h a t a ju dgm en t of a cqu it t a l on t h e feder a l m u r der
ch a r ge cou ld pa ve t h e wa y for a dou ble-m u r der
pr osecu t ion in st a t e cou r t . If t h is h a ppen ed, t h en Slon e
cou ld on ce a ga in be fa cin g t h e dea t h pen a lt y.
Slon e a r gu es t h a t t h is wa s n ot a r ea son a ble
con cer n , bu t h is a r gu m en t s fa il. In his post h ea r ing
br ief, Slon e r elies on Ken t u cky Revised St a t u t es §§
505.050 a n d 505.060, wh ich pr oh ibit u n fa ir or
oppr essive pr osecu t ion s. D.E . 832 a t 9. Un der §
505.050, a st a t e pr osecu t ion su bsequ en t t o a feder a l
pr osecu t ion is ba r r ed wh en :
(1)
Th e for m er pr osecu t ion r esu lt ed in a n
a cqu it t a l, a con vict ion wh ich h a s n ot
su bsequ en t ly been set a side, or a
det er m in a t ion
t ha t
t h er e
wa s
in su fficien t eviden ce t o wa r r a n t a
con vict ion , a n d t h e su bsequ en t
pr osecu t ion is for a n offen se in volvin g
t h e sa m e con du ct u n less:
(a) E a ch pr osecu t ion r equ ir es pr oof of a
fa ct n ot r equ ir ed in t h e ot h er pr osecu t ion ;
or
1

Slone’s argument here is the opposite of the one made in a case cited by the
government, in which the defendant, convicted under § 1513, argued that the
threats he made to a witness “at most evidence[d] an intent to obstruct justice
by influencing future testimony, but not an intent to retaliate for past
information proffered.” United States v. Brown, 937 F.2d 32, 37 (2d Cir.
1991). The Court of Appeals rejected this argument, noting that “a threat
may be construed to intend both retaliation and intimidation.” Id.

26a

(b) Th e
offen se
in volved
in
the
su bsequ en t
pr osecu t ion
wa s
n ot
con su m m a t ed
wh en
the
for m er
pr osecu t ion bega n ; or
(2)

Th e
for m er
pr osecu t ion
wa s
t er m in a t ed in a fin a l or der or
ju dgm en t wh ich h a s n ot su bsequ en t ly
been set a side a n d wh ich r equ ir ed a
det er m in a t ion in con sist en t wit h a ny
fa ct n ecessa r y t o a con vict ion in t he
su bsequ en t pr osecu t ion .

Ky. Rev. St a t . § 505.050.
H er e, a su bsequ en t st a t e pr osecu t ion wou ld be
per m it t ed u n der t h e except ion of § 505.050(1)(a ).
Clea r ly, t h e feder a l cr im e of r et a lia t or y m ur der a ga in st
a feder a l wit n ess “r equ ir es pr oof of a fa ct n ot r equ ir ed”
in a st a t e pr osecu t ion for sim ple m u rder .
Most
obviou sly, a st a t e m ur der ch a r ge wou ld n ot r equ ir e t h e
feder a l n exu s r equ ired by § 1513 (or § 1512 for t h a t
m a t t er ). As J u dge Wier obser ved in Den h am , § 1513
r equ ir es a n u n der lyin g feder a l offen se a n d t h e
pa r t icipa t ion of feder a l la w en for cem en t . Un ited S tates
v. Den h am , 663 F . Su pp. 2d 561, 563-64 (E .D. Ky.
2009).
Th ese elem en t s m eet t h e except ion of §
505.050(1)(a ), a n d wou ld n ot h a ve pr eclu ded a st a t e
m u r der pr osecu t ion h a d Slon e been a cqu it t ed in feder a l
cou r t . In t er est in gly, if Slon e wer e cor r ect a bou t h is
su bject m a t t er ju r isdict ion a r gu m en t , t h en t h e la ck of
feder a l su bject m a t t er ju r isdict ion a lso pr ovides a n
except ion t o t h e su bsequ en t pr osecu t ion ba r . S ee Ky.
Rev. St a t . § 505.060(2) (per m it t in g a su bsequ en t st a t e
cou r t pr osecu t ion wh en t h e feder a l pr osecu t ion “[w]a s
befor e a cou r t wh ich la cked ju r isdict ion over t h e
defen da n t or t h e offen se”).
Accor din gly, Slon e’s a t t or n eys’ a ffida vit s a n d h ea r ing
t est im on y est a blish t h a t ch oosin g t o plea d gu ilt y r a t h er
t h a n pr essin g t h e a ct u a l-kn owledge issu e wa s a

27a

r ea son a ble st r a t egic decision . Slon e h a s n ot over com e
t h e pr esu m pt ion t h a t t h is st r a t egy wa s sou n d. M oss v.
H ofbau er, 286 F .3d 851, 859 (6t h Cir . 2002).
V. Wa s Cou n s e l In e ffe c tiv e Re g a rd in g S p e e d y Tria l
Rig h ts ?
In h is Gr ou n d Th r ee, Slon e a r gu es t h a t h e
su ffer ed a “viola t ion of t h e Speedy Tr ia l Act du e t o
ext en ded post -in dict m en t dela y ext en din g a lm ost t h r ee
yea r s [befor e h is gu ilt y plea .]” D.E . 747 a t 7. H e cla im s
t h a t h is decision t o plea d gu ilt y “wa s ba sed in pa r t on
bein g t ir ed of sit t in g in ja il,” a n d t h a t “[i]f n ot for t h ose
dela ys,” h e wou ld n ot h a ve plea ded gu ilt y t o t h e m u r der
ch a r ges. Id .

To be clea r , Slon e nowh er e explicit ly cla im s a
viola t ion of h is con stitu tion al r igh t t o a speedy t r ia l
u n der t h e Sixt h Am en dm en t . In st ea d, a ll r eleva nt
r efer en ces a r e t o t h e Speedy Tr ia l Act , 18 U.S.C. §§
3161-3174. S ee D.E . 747-7 a t 5, 16, 29-30. H owever , in
h is a r gu m en t , Slon e does cit e a Su pr em e Cou r t ca se
t h a t con cer n s t h e con st it u t ion a l r igh t t o a speedy t r ia l.
D.E . 7477 a t 30 (cit in g Doggett v. Un ited S tates, 505
U.S. 647, 652 n .1 (1992)).
By oper a t ion of t h e effect ive colla t er a l a t t a ck
wa iver in h is plea a gr eem en t , Slon e’s speedy t r ia l issue
is pr oper ly befor e t h e Cou r t on ly a s a cla im of
in effect ive a ssist a n ce of cou n sel (“IAC”). S ee D.E . 635
a t 4 ¶ 7 (wa ivin g t h e r igh t t o colla t er a lly a t t a ck on a n y
cla im except
IAC).
In deed, Slone st a t es t ha t Ms. Cr ou se wa s
in effect ive for wa iving h is speedy t r ia l r igh t s. D.E . 747
a t 5. An d h e st a t es t h a t “a ll issu es” in h is § 2255
m ot ion “r ela t e t o [h is] a t t or n eys fa ilin g t o pr ovide t h e
effect ive a ssist a n ce of cou n sel.” Id . a t 10. Alt h ou gh in
h is m em or a n du m
Slon e descr ibes Gr ou n d Th r ee a s a “Viola t ion of t h e
Speedy Tr ia l Act Du e t o t h e E xt en ded P ost In dict m en t

28a

Dela y E xt en din g Alm ost Th r ee Yea r s Befor e P lea ,” h e
la t er specifies t h a t “[a ]ll t h r ee gr ou n ds” in h is m ot ion
“r ela t e t o t h e den ia l of h is Sixt h Am en dm en t r igh t t o
t h e effect ive a ssist a nce of cou n sel.” D.E . 747 -7 a t 8-9,
29. Likewise, Slon e’s post -h ea r in g br ief fr a m es t h e
issu e a s Slon e’s cou n sel bein g “in effect ive for a llegedly
wa ivin g h is Speedy Tr ia l r igh t s.” D.E . 832 a t 1. So, t h e
qu est ion is, given t h e pr esu m pt ion t h a t cou n sel a ct ed
r ea son a bly, h a s Slon e sh own deficien t per for m a n ce a n d
pr eju dice in r ega r d t o t h e wa iver of h is r ight s u n der t h e
Speedy Tr ia l Act (or , per h a ps, a lt er n a t ively, by fa iling
t o ch a llen ge a viola t ion of t h e Speedy Tr ia l Act )? Slon e
ca n n ot pr ove deficien t per for m a n ce in r ega r d t o h is
speedy t r ia l r igh t s beca u se h e ca n n ot sh ow a n y
u n der lyin g viola t ion of t h e Speedy Tr ia l Act or t he
Sixt h Am en dm en t .
An IAC cla im ba sed on t h e Speedy Tr ia l Act fa ils
if a n y object ion lodged by cou n sel would h a ve been
fu t ile. Callow ay v. Un ited S tates, No. 3:07-CR-25-CRS,
2016 WL 3094028, a t *10 (W.D. Ky. J u n e 1, 2016).
Su ch is t h e ca se h er e.
F ir st , a lt h ou gh Slon e m a kes a con clu sor y cla im
t h a t t h e Act wa s viola t ed, h e n owh er e a lleges t h a t m or e
t h a n seven t y cou n t a ble da ys ela psed befor e h e plea ded
gu ilt y. Th e Act r equir es t h a t a defen da n t ’s t r ia l begin
wit h in 70 da ys of t h e in for m a t ion or in dict m en t , or his
fir st a ppea r a n ce in cou r t , wh ich ever occu r s la t er . 18
U.S.C. § 3161(c)(1). Bu t t h e Act a u t om a t ica lly exclu des
cer t a in kin ds of dela y fr om t h e 70-da y lim it . S ee id . §
3161(h ); Un ited S tates v. Z abaw a, 719 F .3d 555, 561
(6t h Cir . 2013). And it per m it s a Cou r t t o exclu de
cer t a in t im e per iods u pon m a kin g cer t a in fin din gs. S ee
id .
Slon e n ever even a lleges t h a t m or e t h a n 70
cou n t a ble da ys ela psed, a n d t h e Cou r t is n ot r equ ir ed t o
a t t em pt t o m a ke t his a r gu m en t for h im .
Accor din gly, h e ca n not su st a in a cla im ed viola t ion of
t h e Act .
Secon d, beca u se Slon e n ever m oved for dism issa l
u n der t h e Speedy Tr ia l Act pr ior t o h is gu ilt y plea , a ny
cla im s u n der t h e Act h a ve been wa ived. “A defen da n t ’s

29a

fa ilu r e t o m ove for dism issa l pr ior t o t r ia l . . .
con st it u t es a wa iver of t h e r igh t t o dism issa l [u n der t h e
Act ].” Un ited S tates v. B row n , 819 F .3d 800, 809 (6t h
Cir . 2016) (cit in g 18 U.S.C. 3162(a )(2)); accord Un ited
S tates v. B row n , 498 F .3d 523, 529-30 (6t h Cir . 2007)
(cit in g Z ed n er, 547 U.S. a t 494). Addit iona lly, a m ot ion
“ca n n ot pr oper ly a llege a viola t ion of t h e Act u n less it is
filed after t h e expir a t ion of t h e 70-da y dea dlin e beca u se
t h e STA viola t ion h a s n ot yet occu r r ed.” B row n , 819
F .3d a t 809. In t his ca se t h er e wa s n o pr e -t r ia l m ot ion
t o dism iss a n d Slon e h a s n ot a lleged t h a t 70 n on exclu da ble da ys ela psed pr ior t o h is gu ilt y plea .
Th ir d, a cla im of IAC ba sed on t h e Speedy Tr ia l
Act fa ils for la ck of pr eju dice u n less t h e defen da n t ca n
sh ow t h a t a n y dism issa l ba sed on t h e Act wou ld h a ve
been a dism issa l wit h pr eju dice. Un ited S tates v.
J ack son , 22 F . App’x 396, 398 (6t h Cir . 2001); Un ited
S tates v. Cam pbell, No. 01-CV-73211-DT, 2002 WL
32129979, a t *5 (E .D. Mich . J a n . 25,

2002), ad opted , 266 F . Su pp. 2d 587 (E .D. Mich . 2003),
aff’d , 364 F .3d 727 (6t h Cir . 2004). Sect ion 3162
pr ovides a ser ies of fa ct or s for a cou r t t o u se in deciding
t o dism iss wit h or wit h ou t pr eju dice in t h e wa ke of a
viola t ion of t h e Speedy Tr ia l Act . S ee Un ited S tates v.
H ow ard , 218 F .3d 556, 561 (6t h Cir . 2000). Slon e does
n ot a ddr ess t h ese fa ct or s.
Th e r ecor d a lso est a blish es t h a t Slon e’s ca se wa s
a ppr opr ia t ely decla r ed com plex a n d t h u s exclu ded fr om
t h e Act ’s dea dlin es. 18 U.S.C. § 3161(h )(7)(B)(ii). Slon e
wa s init ia lly in dict ed on J u ly 26, 2012. D.E . 1. A
su per sedin g in dict m en t issu ed on Au gu st 23, 2012,
a dded eleven co-defen da n t s.
D.E . 18.
As ea ch
codefen da n t wa s a r r a ign ed, t h e Speedy Tr ia l clock wa s
effect ively r eset . 18 U.S.C. § 3161(h )(6). A secon d
su per sedin g in dict m en t t h a t issu ed on Decem ber 11,
2012, a dded t h e t wo m u r der cou n t s a ga in st Slon e. D.E.
129.

30a

On Decem ber 27, 2012, t h e gover n m en t m oved t o
design a t e t h e ca se a s com plex. D.E . 148. Specifica lly,
t h e gover n m en t a r gu ed t h a t t h e Speedy Tr ia l clock
cou ld n ot be sa t isfied in t h is ca se beca u se t h e Unit ed
St a t es At t or n ey h a d r ecom m en ded t h a t t h e dea t h
pen a lt y be sou gh t a ga in st Slon e, a n d t h e defen se t ea m
h a d in voked t h eir r igh t t o ch a llen ge t h a t decision
befor e t h e At t or n ey Gen er a l’s Dea t h P en a lt y
E va lu a t ion Com m it t ee. Id .
Th e Speedy Tr ia l Act pr ovides a specia l except ion
wh en “t h e ca se is so u n u su a l or com plex, du e t o t h e
n u m ber of defen da n t s, t h e n a t u r e of t h e pr osecu t ion , or
t h e exist en ce of n ovel qu est ion s of fa ct or la w, t h a t it is
u n r ea son a ble t o expect a dequ a t e pr epa r a t ion for
pr et r ia l pr oceedin gs or for t h e t r ia l it self wit h in t h e [70 da y t r ia l clock].”
18 U.S.C. § 3161(h )(7)(B)(ii).
“Gr a n t in g a con t in u a n ce ba sed on t h e com plexit y of a
ca se is st a t u t or ily a ppr opr ia t e a n d ha s been est a blish ed
in ca se la w a s a dequ a t e.” Un ited S tates v. S ton e, 461 F .
App’x 461, 465 (6t h Cir .2012). Non e of t h e defen da n t s
in t h is ca se object ed t o t h e gover n m en t ’s m ot ion , a n d
t h e t en wh o r espon ded a gr eed t h a t t h e na t u r e of t h e
pr osecu t ion , specifica lly in r ega r d t o Slon e, r en der ed
t h e ca se “com plex” un der t h is pr ovision of t h e Speedy
Tr ia l Act . D.E . 174. Slon e wa s a m ong t h ose wh o
lodged n o object ion . D.E . 155. Dist r ict J u dge Th a pa r
gr a n t ed t h e m ot ion on J a n u a r y 11,
2013, fin din g t h a t t h e ca se wa s “u n u su a l a n d com plex”
a s descr ibed in sect ion 3161(h )(7)(B)(ii). Id . Slon e does
n ot a llege a ny im pr opr iet y in r ega r d t o J udge Th a pa r ’s
or der . Th a t bein g t he ca se, J u dge Th a pa r ’s or der (t h a t
a ppr opr ia t ely fou n d t h e ca se com plex) exem pt ed t h e
ca se fr om com plia n ce wit h t h e Speedy Tr ia l Act .
Over a yea r la t er , on F ebr u a r y 13, 2014, t he
gover n m en t filed it s n ot ice of in t en t n ot t o seek t h e
dea t h pen a lt y a ga in st Slon e. D.E . 431. Mr . Ba u gh ,
wh o wa s a ppoin t ed t o a ssist in lit iga t in g a ga in st t he
ca pit a l pr osecu t ion , m oved t o wit h dr a w. D.E . 435. On
F ebr u a r y 27, Slon e m oved t o h a ve t h e ca se a ga in
decla r ed com plex, despit e it n o lon ger bein g a ca pit a l
ca se. D.E . 449. Cou n sel expla in ed t h a t t h ey n ow

31a

n eeded t o sh ift t o “t r ia l pr ep m ode,” wh ich in clu ded
r et a in in g exper t s t o t est ify a t t r ia l (pa r t icu la r ly beca u se
t h e ch a r ges in clu ded m u r der s wit h ou t eyewit n esses)
a n d r eviewing h un dr eds of h ou r s of wir et a p s
con cer n in g t h e a lleged dr u g con spir a cy. Id . a t 3-4. The
defen se a lso believed t h a t “t h er e is m u ch m or e
discover y ou t t h er e t h a t n eeds t o be t u r n ed over t o Mr .
Slon e” beca u se su ch discover y wa s bein g pr odu ced in
r ela t ed pr osecu t ion s. Id . a t 4.
Th e F ebr u a r y 2014 m ot ion a n d m em or a n du m
wer e a ccom pa n ied by a sign ed “Wa iver by Eu gen e Slone
of Righ t t o a Speedy Tr ia l,” execu t ed on F ebr u a r y 24,
2014. D.E . 449-2. Slon e la t er execu t ed a sim ila r
wa iver on Sept em ber 29, 2014, (D.E . 518) in r ela t ion t o
a m ot ion t o con t inu e t h e t r ia l (D.E . 513). Th ese
wa iver s ha ve n o lega l effect beca u se a defen da n t m a y
n ot pr ospect ively wa ive t h e a pplica t ion of t h e Speedy
Tr ia l Act . Z ed n er v. Un ited S tates, 547 U.S.
489, 501-02 (2006); Un ited S tates v. B row n , 498 F .3d
523, 529 (6t h Cir . 2007). Bu t t h e wa iver s do sh ow t h a t
Slon e wa s a wa r e a t t h e t im e of h is a t t or n eys’ m ot ion s
a n d t h eir Speedy Tr ia l Act im plica t ion s.
Du r in g a t elecon fer en ce on t h e F ebr u a r y 2014
m ot ion , t h e gover n m en t a gr eed t ha t t h e ca se qu a lified
a s “com plex,” a n d J u dge Th a pa r gr a n t ed Slon e’s m ot ion
on Ma r ch 6. D.E . 456 a t 1-2. J u dge Th a pa r n ot ed t ha t
t h e ca se “r ecen t ly sh ift ed fr om t h e m it iga t ion ph a se, in
wh ich defen se cou n sel sou gh t t o per su a de t h e
Depa r t m en t of J u st ice n ot t o seek t h e d ea t h pen a lt y, t o
t h e t r ia l pr epa r a t ion ph a se. . . . Tr ia l pr epa r a t ion in a
dou ble-m u r der ca se will r equ ir e m or e t im e t h a n
r em a in s on Slon e’s speedy t r ia l clock.” Id . a t 2. Aga in,
Slon e does n ot a llege t h a t t his fin din g wa s in a ccu r a t e
or im pr oper . An y pr e-t r ia l object ion t o t h is fin ding
wou ld h a ve been fu t ile. Slon e m a kes n o pla u sible cla im
of a Speedy Tr ia l Act viola t ion t h a t cou ld su ppor t a n
IAC cla im .
As pr eviou sly n ot ed, Slon e m oved a ga in t o
con t in u e t h e t r ia l in Sept em ber 2014.
D.E . 513.
Am on g ot h er t h in gs, t h e m em or a n du m in su ppor t of t h e
m ot ion n ot ed t ha t t h e gover n m en t wa s r elu ct a n t t o

32a

r evea l it s wit n esses on a ccou n t of “wh a t t hey per ceive is
a t h r ea t fr om t h e Defen da n t .” Id . a t 2. At t h e t im e,
t r ia l pr epa r a t ion h a d a lso been slowed “du e t o ser ious
a n d ext en sive plea n egot ia t ion s.”
Id.
Cou n sel
expla in ed t h a t t h ey h a d wa it ed t o a pply for a bu dget
a n d r et a in exper t s u n t il t h ey kn ew whet h er a plea
a gr eem en t wou ld be r ea ch ed. Id . a t 2-3. Th is m ot ion
r esu lt ed in t h e fin a l con t in u a n ce of t h e t r ia l. D.E . 523.
Giving Slon e’s cou n sel a ppr opr ia t e defer en ce u n der
S trick lan d , t h e fa ct s in t h e r ecor d do n ot su ggest t h a t
t h ey wer e in effect ive for m ovin g t o con t in ue t h e t r ia l, or
t h a t Slon e’s r igh t s un der t h e Speedy Tr ia l Act wer e
viola t ed.
E ven if t h e Cou r t in t er pr et s Slon e’s § 2255
m ot ion ext r em ely br oa dly a s con t a in ing a con st it u t iona l
speedy t r ia l cla im un der t h e Sixt h Am en dm en t , h e
wou ld h a ve n o u n der lyin g cla im t o su ppor t a fin din g of
IAC. Cou r t s a n a lyze a lleged con st it u t ion a l speedy-t r ia l
r igh t viola t ion s u sin g fou r r ela t ed fa ct or s t h a t “m u st be
con sider ed t oget h er wit h su ch ot h er cir cu m st a n ces a s
m a y be r eleva n t .” B row n , 498 F .3d a t 530 (qu ot ing
B ark er v. Win go, 407 U.S. 514, 533 (1972)). Th e fa ct or s
a r e: (1) lengt h of dela y; (2) t h e r ea son for t h e dela y; (3)
t h e defen da n t ’s a sser t ion of h is r igh t ; a n d (4) pr eju dice
t o t h e defen da n t . Id . (qu ot in g B ark er, 407 U.S. a t 530).
Th e fir st fa ct or , wh ich is a “t r igger in g m ech a n ism ” for
t h e ot h er fa ct or s, is m et h er e, beca u se a dela y of a yea r
or m or e is pr esu m pt ively pr eju dicia l. Un ited S tates v.
Y ou n g, 657 F .3d 408, 414 (6t h Cir . 2011). H owever ,
r ega r din g fa ct or (3), a s a lr ea dy n ot ed, Slon e does n ot
a llege t h a t h e ever a sser t ed h is r igh t t o a speedy t r ia l
pr ior t o plea din g gu ilt y.
Th e secon d fa ct or a lso cou n t s a ga in st Slon e
beca u se it wa s h is own defen se t ea m t h a t m oved for t h e
ca se t o be decla r ed com plex (t wice), a n d t h en for it t o be
con t in u ed. F or m u ch of t h e pr et r ia l per iod, cou n sel wa s
lit iga t in g a ga in st t h e U.S. At t or n ey’s Office’s in t en t ion
t o seek t h e dea t h pena lt y. Aft er t h ey pr eva iled on t h is
issu e, cou n sel sou gh t a dequ a t e t im e t o r eview a n d
pu r su e volu m in ou s discover y a n d t o explor e t he
possibilit y of u t ilizin g exper t wit n esses.
P r et r ia l

33a

pr epa r a t ion s wer e a lso slowed du e t o ext en sive plea
n egot ia t ion s a n d t he gover n m en t ’s fea r t h a t Slone
posed a t h r ea t t o it s wit n esses. Accor din gly, t h e bu lk of
t h e dela y is a t t ribu t a ble t o t h e Defen da nt , a n d fa ct or
t wo wor ks a ga in st him .
Rega r din g t h e fou r t h fa ct or , pr eju dice, a lt h ou gh
Slon e a r gu es t h a t h e on ly plea ded gu ilt y on a ccou n t of
h is ext en sive t im e sit t in g in pr ison befor e t r ia l (D.E.
747-7 a t 29-30), h e m a kes n o a r gu m en t (a side fr om a n
u n con vin cin g a sser t ion of in n ocen ce) t h a t h e cou ld h a ve
r eceived a bet t er plea dea l or a bet t er r esu lt a t t ria l if
t h in gs h a d gon e differ en t ly. Th u s, even if Slon e’s
m ot ion ca n be con st r u ed a s a llegin g a viola t ion of his
con st it u t ion a l speedy-t r ia l r igh t em bedded wit h in a n
IAC cla im , h e ha s n ot est a blish ed a n u n der lyin g Sixt h
Am en dm en t viola t ion.

VI. Wa s Co u n s e l Oth e rw is e In e ffe c tiv e ?
In h is m em or a n du m , Slon e m a kes t wo IAC cla im s t h a t
a r e n ot m en t ion ed in h is m ot ion .
F ir st , h e a r gu es t h a t “h is a t t or n eys wer e in effect ive for
wa ivin g t h e P r esen t en ce In vest iga t ion Repor t (P SR).”
D.E . 747-7 a t 14.
Slon e ca n n ot sh ow deficient
per for m a n ce or pr eju dice on t h is a ccou n t beca u se t h e
P SR is wh a t t h e Cour t u ses t o fa sh ion a sen t en ce. In
Slon e’s ca se, t h e bin din g plea a gr eem en t set t h e
sen t en ce a t 25 yea r s, followed by lifet im e su per vised
r elea se. D.E . 635 a t 3 ¶ 6. J u dge Tha pa r h a d n o n eed
for a P SR beca u se h e a ccept ed a n d sign ed t h e plea
a gr eem en t at S lon e’s rearraign m en t a n d h a d n o
su bsequ en t oppor t u n it y t o cr a ft t h e sen t en ce. 2
2

Judge Thapar stated that he usually orders a PSR, even for binding plea
agreements, to help him decide whether to accept the agreement. D.E. 782 at
40. However, Judge Thapar considered this case “different” because he was
“so familiar with Mr. Slone” on account of the pretrial report and the length
of the case. Id. He said, “it seems to me all I’m going to get out of a

34a

Th u s, r ega r din g pr eju dice, Slon e h a s n ot
expla in ed h ow t h e pr odu ct ion of a P SR in h is ca se cou ld
h a ve r esu lt ed in a lesser sen t en ce. Slon e a r gu es t h a t
“[n ]ot h a vin g a P SR t o see h ow m u ch t im e h e wa s r ea lly
fa cin g[] im pa ir ed h is a bilit y t o en t er in t o a kn owin g a n d
in t elligen t plea a gr eem en t .” D.E . 747-7 a t 14. He
st a t es t h a t “[i]f h is cou n sel h a d n ot wa ived h is P SR . . .
a n d h e h a d kn own h is Sen t en cin g Gu idelin e r a n ge, h e
wou ld n ot h a ve plea ded gu ilt y.” Id . a t 17. Bu t t his
a r gu m en t fa ils beca use t h e P SR is pr odu ced after t h e
defen da n t plea ds gu ilt y or is con vict ed a ft er a t r ia l. S ee
F ed. R. Cr im . P 32 (descr ibin g t h e P SR a s pa r t of “post con vict ion pr ocedu r es”). Th e P SR h a s n o bea r in g on a
defen da n t ’s decision t o plea d gu ilt y beca u se it does n ot
yet exist a n d ca n n ot yet be m a de beca u se it depen ds
u pon t h e su bst a n ce of t h e con vict ion a n d oft en u pon t h e
t er m s of a plea a gr eem en t .

Secon d, Slon e a r gu es h is cou n sel wa s ineffect ive for
“n ot ch a llen gin g eit her of t h e t h r ee in dict m en t s . . . for
n ot st a t in g a dr u g qu a n t it y.” D.E . 747-7 a t 26. E a ch
in dict m en t ch a r ges t h e defen da n t s wit h con spir in g “t o
dist r ibu t e a qu a n t it y of pills con t a in ing oxycodon e.”
D.E . 1, 18, 129. Slon e descr ibes t h is a s a viola t ion of
Appren d i v. N ew J ersey, 530 U.S. 466 (2000). Bu t h e
m isu n der st a n ds Appren d i. Th a t ca se h olds t h a t if t he
gover n m en t ch a r ges a specific dr u g qu a n t it y t h a t
r esu lt s in exposu r e t o a n in cr ea sed m inim um sen t en ce,
presentence report is all the things I know.” Id. at 45. Neither party objected
to Judge Thapar accepting the binding plea agreement sans PSR. Id. at 40.
Thus, Judge Thapar accepted and signed the plea agreement at Slone’s
rearraignment. Id. at 46. Under those circumstances, the parties agreed that
there was no need for a PSR. Id. at 48. Judge Thapar informed Slone that he
had “a right to have a presentence report prepared.” Id. Slone said he
understood the right, and had no problem with waiving the PSR. Id. Judge
Thapar told Slone that if “at any point” before sentencing he changed his
mind about having a PSR prepared, “let me know. I’m happy to order one.”
Id.

35a

t h e dr u g qu a n t it y m u st be fou n d by a jur y beyon d a
r ea son a ble dou bt . H er e, t h e gover n m en t did n ot ch a r ge
a specific qu a n t it y of pills (which is con sist en t wit h 21
U.S.C. § 841(b)(1)(C)) a n d t h er e wa s n o ju r y t r ia l.
Appren d i does n ot a pply. F u r t h er , Slon e con t in u es t o
a dm it t h a t h e is gu ilt y of con spir in g t o dist r ibu t e a
“qu a n t it y” of oxycodon e pills. S ee, e.g., D.E . 824 a t 78.
Th er e is n o ba sis for fin din g in effect ive a ssist a n ce on
t h ese gr ou n ds.
As a fin a l m a t t er , Slon e poin t s t o a pr ovision in Mr .
St or m ’s r epr esen t a t ion con t r a ct t h a t exclu ded h im fr om
“r epr esen t a t ion in cr im es-of-violen ce ca ses,” a nd
su ggest s t h a t Mr . St or m ’s decision t o con t in u e
r epr esen t in g h im a fter t h e in dict m en t for m u r der “is
som eh ow r ela t ed t o h is deficien t a n d pr eju dicia l
per for m a n ce.” D.E . 747-7 a t 28. Slone fa u lt s Mr .
St or m for n ot r ecu sin g h im self a ft er t h e m u r der
in dict m en t . D.E . 747 a t 5 (cit in g D.E . 172 a t 5 ¶ 7).
Th is a r gu m en t is t oo va gu e t o su ppor t a fin din g of
in effect ive a ssist a n ce. S ee Wogen stah l v. M itch ell, 668
F .3d 307, 335 (6t h Cir . 2012) (“[M]er ely con clu sor y
a llega t ion s of in effect ive a ssist a n ce . . . a re in su fficien t
t o st a t e a con st it u t iona l cla im .”).
VII. Co n c lu s ion
B a s e d o n th e fo re g o in g , th e u n d e rs ig n e d
RECOMMEN D S th a t S lo n e ’s 28 U .S .C.
§ 2255 m ot ion (D.E . 747) be D EN IED .
Th e u n der sign ed fu r t h er RECOMMEN D S t h a t
n o Cer t ifica t e of Appea la bilit y issu e. Un der 28 U.S.C. §
2253(c)(2), a cer t ifica t e of a ppea la bilit y m a y issu e “on ly
if t h e a pplica n t h a s m a de a su bst a n t ia l sh owin g of t he
den ia l of a con st it u t ion a l r igh t .” S ee also Ru le 11 of t he
Ru les Gover n in g Sect ion 2255 pr oceedin gs.
Th is
st a n da r d is m et if t h e defen da n t ca n sh ow “t h a t
r ea son a ble ju r ist s cou ld deba t e wh et h er (or , for t h a t
m a t t er , a gr ee t h a t ) t h e pet it ion sh ou ld h a ve been

36a

r esolved in a differ en t m a n n er or t ha t t h e issu es
pr esen t ed wer e ‘a dequ a t e t o deser ve en cou r a gem en t t o
pr oceed fu r t h er .’” M iller-E l v. Cock rell, 537 U.S. 322,
336 (2003) (qu ot in g B arefoot v. E stelle, 463 U.S. 880,
893 n .4 (1983)). Th e Cou r t h a s con sider ed t h e issu a n ce
of a Cer t ifica t e of Appea la bilit y a s t o ea ch of Slon e’s
cla im s.
No r ea son a ble ju r ist would fin d t h e
a ssessm en t s on t h e m er it s a bove t o be wr on g or
deba t a ble; t h u s, n o Cer t ifica t e of Appea la bilit y sh ou ld
issu e.
Slon e r et r a ct ed h is a sser t ion t h a t Mr . St or m
coa ch ed h im in t o lyin g a t h is r ea r r a ign m en t . An d his
st a t em en t s su ggest ing t h a t h is plea wa s n ot kn owin g
a n d volu n t a r y la ck cr edibilit y. H e is t h er efor e bou n d t o
h is swor n st a t em en t s a t h is plea h ea r ing. H is plea ,
in clu din g his wa iver of cer t a in a ppella t e a n d colla t era l
a t t a ck r igh t s, is va lid a n d en for cea ble.
Slon e’s IAC cla im s a lso fa il on t h e m er it s.
Cou n sel’s decision t o r ecom m en d t h a t Slon e plea d
gu ilt y t o t h e m u r der s wit h ou t r a isin g a “subject m a t t er
ju r isdict ion ” defen se wa s a r ea son a ble t a ct ica l decision.
Slon e h a s pr esen t ed n o la w est a blish in g t h a t t h e
vict im s h a d t o be a ct u a l in for m a n t s in or der t o sa t isfy
18 U.S.C. § 1513. Addit ion a lly, a ny dism issa l of t h e §
1513 ch a r ges cou ld ha ve led eit h er t o st a t e ch a r ges or
ch a r ges u n der § 1512. Slon e a lso ha s n ot sh own a n y
in effect ive a ssist a n ce in r ela t ion t o h is Speedy Tr ia l
r igh t s, pa r t icu la r ly wh en h e ha s n ot est a blish ed t h a t
su ch r igh t s wer e even viola t ed.

Th e Cou r t dir ect s t h e pa r t ies t o 28 U.S.C. §
636(b)(1) for a ppea l r igh t s a n d m ech a n ics con cer n in g
t h is Recom m en ded Disposit ion , issu ed u n der su b sect ion
(B) of t h e st a t u t e. S ee also Ru les Gover n in g Sect ion
2255 P r oceedin gs, Ru le 8(b). Wit h in fou r t een da ys
a ft er bein g ser ved wit h a copy of t h is decision , a n y
pa r t y m a y ser ve a n d file specific wr it t en object ion s t o
a n y or a ll fin din gs or r ecom m en da t ion s for
det er m in a t ion , d e n ovo, by t h e Dist r ict Cou r t . F a ilu r e

37a

t o m a ke a t im ely object ion con sist en t wit h t h e st a t u t e
a n d r u le m a y, a n d n or m a lly will, r esu lt in wa iver of
fu r t h er a ppea l t o or r eview by t h e Dist r ict Cou r t a n d
Cou r t of Appea ls. S ee T h om as v. Arn , 474 U.S. 140, 155
(1985); Un ited S tates v. Walters, 638 F .2d 947, 950 (6t h
Cir . 1981).

Th is Recom m en ded Disposit ion r elies in pa r t
u pon t est im on y a t t h e J u ly 7, 2017 evident ia r y h ea r ing
t h a t wa s sea led fr om t h e pu blic ba sed u pon J u dge
Th a pa r ’s Or der a t Docket E n t r y 816. S ee D.E . 825
(sea led por t ion of h ea r in g t r a n scr ipt ). To a ddr ess t h e
con cer n s t h a t led t o t h e t est im on y being sea led, t he
Cou r t will sim u lt a neou sly file t wo ver sion s of t h is
Recom m en ded Disposit ion , bot h u n der sea l, on e of
wh ich will r eda ct a n y in for m a t ion der ived fr om t h e
sea led t est im on y.
IT IS HEREB Y ORD ERED THAT wit h in
fou r t een da ys of t h e filin g of t h is Recom m en ded
Disposit ion , t h e pa r t ies S HALL IN D ICATE by
a ppr opr ia t e filin g whet h er t h e r eda ct ed ver sion of t h is
docu m en t a dequ a t ely pr ot ect s t h e in t er est s t h a t led t o
t h e t est im on y bein g sea led. If so, t h e r eda ct ed ver sion
will be u n sea led by sepa r a t e or der . If n ot , t h e pa r t ies
S HALL specifica lly iden t ify t h e por t ion s of t h is
Recom m en ded Disposit ion t h a t t h ey believe sh ou ld be
r eda ct ed, a n d wh y.
IT IS F U RTHER ORD ERED THAT t h e
gover n m en t ’s pen din g m ot ion t o sea l it s u n r eda ct ed
post -h ea r in g m em or a n du m (D.E . 835) is GRAN TED .
Th is t h e 9t h da y of Novem ber , 2017.

38a

UNITE D STATE S DISTRICT COURT
E ASTE RN DISTRICT OF KENTUCKY
SOUTH E RN DIVISION
LONDON
Cr im . No. 6:12-cr -00028-GF VT-H AI-1
UNITE D STATE S OF AME RICA
P la in t iff/Respon den t
v.
E UGE NE SLONE
Defen da n t /P et it ion er
ME MORANDUM OP INION & ORDE R
Th is m a t t er is befor e t h e Cou r t on t h e
Recom m en ded Disposit ion s filed by Un it ed St a t es
Ma gist r a t e J u dge Ha n ly A. In gr a m . Th e Defen da n t ,
E u gen e Slon e, fir st filed a pro se m ot ion t o va ca t e h is
sen t en ce pu r su a n t t o 28 U.S.C. § 2255. [R. 747.] J u dge
In gr a m r eviewed t h e m ot ion , a nd pr epa r ed a
Recom m en ded Disposit ion . [R. 840.] Mr . Slon e filed
object ion s t o t his
Recom m en da t ion . [R. 844.] Th e Unit ed St a t es filed a
r espon se t o t h ose object ion s. [R. 845.]
Un der F eder a l Ru le of Civil P r ocedu r e 72(b)(2), a
pet it ion er h a s fou r t een da ys a ft er ser vice t o r egist er a n y
object ion s t o t h e Recom m en ded Disposit ion or else wa ive
h is r igh t s t o a ppea l. In or der t o r eceive d e n ovo r eview by
t h is Cou r t , a n y object ion t o t h e r ecom m en ded disposit ion
m u st be specific. M ira v. M arsh all, 806 F .2d 636, 637 (6t h
Cir . 1986). A specific object ion “expla in[s] a n d cit e[s]
specific por t ion s of t h e r epor t wh ich [cou n sel] deem [s]
pr oblem a t ic.” R obert v. T esson , 507 F .3d 981, 994 (6t h
Cir . 2007). A gen er a l object ion t h a t fa ils t o iden t ify
specific fa ct u a l or lega l issu es fr om t h e r ecom m en da t ion ,
h owever , is n ot per m it t ed, sin ce it du plica t es t h e

39a

Ma gist r a t e’s effor t s a n d wa st es ju dicia l econ om y. H ow ard
v. S ec’y of H ealth & H u m an S ervs., 932 F .2d 505, 509 (6t h
Cir . 1991). Wh en n o object ion s a r e m a de, h owever , t h is
Cou r t is n ot r equ ir ed t o “r eview . . . a m a gist r a t e’s fa ct u a l
or lega l con clu sion s, u n der a de n ovo or a n y ot h er
st a n da r d . . . .” T h om as v. Arn , 474 U.S. 140, 150 (1985).
P a r t ies wh o fa il t o object t o a Ma gist r a t e’s r epor t a n d
r ecom m en da t ion a r e a lso ba r r ed fr om a ppea ling a dist r ict
cou r t ’s or der a dopt in g t h a t r epor t a n d r ecom m en da t ion .
Un ited S tates v. Walters, 638 F .2d 947 (6t h Cir . 1981).

Mr . Slon e filed t im ely object ion s t o t he in it ia l
Recom m en ded Disposit ion .
[R. 844.]
Th e Cou r t
a ckn owledges it s du t y t o r eview Mr . Slon e’s filin gs u n der
a m or e len ien t st a n da r d t h a n t h e on e a pplied t o a t t or n eys
beca u se h e is pr oceedin g pro se. S ee Fran k lin v. R ose, 765
F .2d 82, 8485 (6t h Cir . 1985). Un der t h is m or e len ien t
con st r u ct ion , t h e object ion s a r e su fficien t ly defin it e t o
t r igger t h e Cou r t ’s obliga t ion t o con du ct a d e n ovo r eview.
S ee 28 U.S.C. § 636(b)(1)(c). Th e Cou r t h a s sa t isfied t h a t
du t y, r eviewin g t h e en t ir e r ecor d, in clu din g t h e plea din gs,
t h e pa r t ies’ a r gu m en t s, r eleva n t ca se la w a n d st a t u t or y
a u t h or it y, a s well a s a pplica ble pr ocedu r a l r u les. F or t h e
following r ea son s, Mr . Slon e’s object ion s will be
OVERRU LED .
I
J u dge In gr a m set s for t h t h e fa ct u a l a n d pr ocedu r a l
ba ckgr ou n d of t h e ca se in h is in it ia l Recom m en ded
Disposit ion . Th e Cou r t m en t ion s on ly key fa ct s t o fr a m e
it s discu ssion a n d a na lysis, in cor por a t in g J u dge In gr a m ’s
discu ssion of t h e r ecor d in t o t h is Or der .
Mr . Slon e wa s ch a r ged wit h on e cou n t of con spir in g
t o dist r ibu t e oxycodon e. [R. 1.] Aft er wa r ds, h e h ir ed
Br a n don St or m t o r epr esen t h im . [R. 13.] A Su per sedin g
In dict m en t wa s t h en issu ed in Au gu st t h a t a dded eleven
codefen da n t s. [R. 18.] Two m on t h s la t er , Slon e a dded
Ma r t in P in a les a n d Ca n da ce Cr ou se t o h is defen se t ea m .
[R. 117, 118.]
Then , in Decem ber 2012, a Secon d

40a

Su per sedin g In dict m en t wa s issu ed, wh ich ch a r ged Slon e
wit h “killin g wit h t h e in t en t t o r et a lia t e for pr ovidin g
in for m a t ion t o la w enfor cem en t .” [R. 129; R. 840 a t 2.] As
a r esu lt of t h ese ch a r ges, t h e gover n m en t in for m ed
Slon e’s a t t or n eys t h a t it in t en ded t o seek t h e dea t h
pen a lt y a n d m oved t he Cou r t t o decla r e t h e ca se com plex.
[R. 148.] So, Slon e’s cou n sel a sked t h e Cou r t t o a ppoin t
a n a t t or n ey wit h ca pit a l lit iga t ion exper ience, i.e. lea r n ed
cou n sel. [R. 165.] Th e Cou r t gr a n t ed t h e gover n m en t ’s
r equ est t o deem t h e ca se “com plex” u n der t h e Speedy
Tr ia l Act . [R. 174.] An d, t h e Cou r t a ppoin t ed Da vid
Ba u gh a s lea r n ed cou n sel for Slon e. [R.
199.] Slon e m oved u n su ccessfu lly t o dism iss t h e Secon d
Su per sedin g In dict m en t .
[R. 324, 357.]
Aft er a
pr esen t a t ion t o t h e Ca pit a l Cr im es Un it , t h e gover n m en t
filed n ot ice t ha t it wou ld n ot seek t h e dea t h pen a lt y. [R.
431.] As a r esu lt , Mr . Ba u gh wit h dr ew a s cou n sel. [R.
437.]
Aga in , in F ebr u a r y 2014, Mr . Slon e m a de a
m ot ion , a ccom pa n ied by a Speedy Tr ia l wa iver 3, for t h e
Cou r t t o decla r e t h e ca se com plex. [R. 499.] Mr . Slon e’s
r equ est wa s gr a n t ed.
[R. 456.] As t h e ca se pr olon ged, Mr . Slon e exh a u st ed h is
r et a in er a n d t h e Cou r t a ppoin t ed Mr . St or m a n d Ms.
Cr ou se a s cou n sel u n der t h e Cr im in a l J u st ice Act . [R.
475.]
Mr . Slon e m oved for a n ot h er con t in u a n ce in
Sept em ber 2014, a t t en ded by a Speedy Tr ia l wa iver , t o
Novem ber . [R. 513, 518.] Th e t r ia l t h en r eceived it s fin a l
da t e of J a n u a r y 20, 2015. [R. 523.]
A
week
befor e
t r ia l, t h e defen se lea rn ed for t h e fir st t im e wh o t h e Un it ed
St a t es’ wit n esses wer e a n d wh a t t h ey sa id a bou t Mr .
Slon e’s in volvem en t in t h e m u r der s. [R. 778-3 a t 8.] As a
r esu lt of discu ssion s a bou t t h ese m a t er ia ls, Mr . Slone
a sked for a plea dea l. Id . Mr . Slon e wa s offer ed a 25-yea r
bin din g plea sen t en ce in exch a n ge for plea din g gu ilt y t o

3

While Mr. Sloan signed a Speedy Trial waiver, that waiver does not factor
into this Court’s decision. Judge Thapar’s decision to continue the trial was
necessary because of the complexity of the case.

41a

a ll t h r ee cou n t s—a “per se len ien t ” sen t en ce. [R. 635; R.
747-7 a t 28-29.]
Th en , on J a n u a r y 16, 2015, Mr . Slon e plea ded
gu ilt y in fr on t of J u dge Th a pa r . [R. 633.] F or t h e
m u r der s in Cou n t s Two a n d Th r ee, Mr . Slon e a dm it t ed
that:
(b)
On J u n e 25, 2012, Dru g E n for cem en t
Adm in ist r a t ion (DE A) a gen t s execu t ed a sea r ch
wa r r a n t a t t h e r esiden ce of Ru t h Beckn er in
Ma n ch est er , Ken t u cky, wh er e t h e Defen da n t a lso
lived. As a r esu lt of t h is sea r ch , t h e Defen da n t
believed t h a t som eone h a d pr ovided in for m a t ion t o
feder a l a gen t s r ega r din g h is oxycodon e dist r ibu t ion
a ct ivit ies. Th e Defen da n t a n d ot h er s u lt im a t ely
con clu ded t h a t t h ose in for m a n t s wer e Da vey
Spa r km a n a n d Keish a Sext on .

(c)
Aft er t h e DE A’s sea r ch on J u n e 25, 2012, t h e
Defen da n t con spir ed a n d a gr eed wit h ot h ers t o kill
Da vey Spa r km a n a n d Keish a Sext on in r et a lia t ion
for t h eir believed cooper a t ion wit h la w
en for cem en t . Specifica lly, t h e Defen da n t pr ovided
ca sh t o a n ot h er m em ber of t h e con spir a cy a s
pa ym en t t o kill Spa r km a n a n d Sext on . On J u ly 19,
2012, t h e Defen da n t con t a ct ed Spa r km a n a n d
Sext on a n d dir ect ed t h em t o a n a ba n don ed m in e
sit e in Kn ot t Cou n t y, Ken t u cky, for a m eet in g. Th e
Defen da n t did so wit h t h e specific kn owled ge t h a t
m em ber s of t h e con spir a cy wou ld be wa it ing t o kill
t h em u pon t h eir a r r iva l. Wh en Spa r km a n a n d
Sext on a r r ived, t h ey wer e sh ot t o dea t h a nd t h e
veh icle t h ey wer e r idin g in wa s set on fir e.
[R. 840 a t 3] [cit in g D.E . 635 a t 3.] Mr . Slon e’s plea dea l
a lso in clu ded a br oa d wa iver pr ovision t h a t pr eclu ded a n y
r igh t t o colla t er a lly a t t a ck h is plea , con vict ion , or
sen t en ce except for cla im s of in effect ive a ssist a n ce of

42a

cou n sel. Id . a t 3-4. On Ma y 19, 2015, Mr . Slon e wa s
sen t en ced t o
300 m on t h s im pr ison m en t wit h n o pr esen t en ce r epor t . [R.
715, 718.]
On Ma y 12, 2016, Mr . Slon e filed h is Mot ion t o
Va ca t e pu r su a n t t o § 2255, a llegin g fou r cla im s r ela t in g t o
in effect ive a ssist a n ce of cou n sel. [R. 747.] Beca u se key
fa ct s wer e in dispu t e a n eviden t ia r y h ea r ing wa s h eld. [R.
799.] Mr . Slon e wa s a ppoin t ed cou n sel for t h a t h ea r in g.
[R. 804.] Du r in g t h e h ea r in g Mr . Slon e, Mr . St or m a n d
Ms. Cr ou se t est ified, a n d wer e qu est ion ed by bot h sides.
[R. 822.] Despit e not h ea r in g ea ch ot h er ’s t est im on ies,
Mr . St or m a n d Ms. Cr ou se’s t est im on ies wer e con sist en t .
Mr . Slon e’s t est im on y, on t h e ot h er h a n d, con t r a dict ed h is
m ot ion a n d a ffida vit s. [R. 747 a t 14; 747-1 a t 8; R. 786 a t
21.]
In clu ded in t h ese con t r a dict ion s wa s h is live
r et r a ct ion of t h e wr it t en a llega t ion t ha t Mr . St or m
coa ch ed h im t o lie a t h is r ea r r a ign m en t h ea r in g. [R. 824
a t 43, 67-68.] Mr . Slon e a lso con t r a dict ed t h e swor n
t est im on y of h is r ea r r a ign m en t wh en h e cla im ed t o be
in n ocen t a t t h e eviden t ia r y h ea r ing. [R. 837 a t 4 -5; R. 825
a t 38-39.] An d, Mr . Slon e’s pr ocla m a t ion s of in n ocen ce
con t r a dict h is in t er view wit h Agen t Richa r d Da lr ym ple.
[R. 825 a t 81-89.] Agen t Da lr ym ple’s r epor t con veyed Mr .
Slon e’s con fession t h a t h e pa id $10,000 t o kill Da vey
Spa r km a n . Id . a t 87.
On Novem ber 9, 2017, J u dge In gr a m issu ed a
Repor t a n d Recom m en da t ion , r ecom m en din g a ll of Mr .
Slon e’s cla im s be den ied. [R. 840.] Mr . Slon e object ed t o
that
Recom m en da t ion .

[R. 844.]

Th e gover n m en t filed a
r espon se
to
t h ose object ion s.
[R. 845.] II

43a

As t o Mr . Slon e’s Mot ion t o Va ca t e [R. 747], filed on
Ma y 12, 2016, J u dge In gr a m ou t lin ed Mr . Slon e’s fou r
cla im s a s follows:
(1) In effect ive a ssist a n ce of Cou n sel du r in g
P lea Negot ia t ion s wh ich ca u sed
Defen da n t t o Accept t h e Gover n m en t ’s
P lea Offer .
(2) In effect ive Assist a n ce of Cou n sel for
F a ilu r es Rela t ed t o Su bject Ma t t er
J u r isdict ion .
(3) In effect ive Assist a n ce of Cou n sel r ela t ed
t o H is Speedy Tr ia l Act Righ t s.
(4) In effect ive Assist a n ce of Cou n sel for
Wa ivin g t h e P r esen t en ce In vest iga t ion
Repor t .
[R. 840.] J u dge In gra m t h ou gh t fu lly con sider ed ea ch of
t h ese cla im s a n d t h is Cou r t is in a gr eem en t wit h his
con clu sion s. Th e Cou r t n ow t u r n s t o Mr . Slon e’s specific
object ion s t o t h e Repor t a n d Recom m en da t ion . Un der
S trick lan d v. Wash in gton , Mr . Slon e m u st pr ove bot h
deficien t per for m a n ce a n d pr eju dice t o a sser t su ccessfu lly
a n in effect ive a ssist a n ce of cou n sel cla im . 466 U.S. 668,
687 (1984); Pou gh v. Un ited S tates, 442, F .3d 959, 964
(6t h Cir . 2006). A
Mr . Slon e fir st object s t o J u dge In gr a m ’s fin d in g
t h a t t h e cou r t h a d su bject m a t t er ju r isdict ion . [R. 844 a t
2.] Specifica lly, h e a r gu es t h a t t h e Unit ed St a t es did n ot
h a ve su bject m a t t er ju r isdict ion u n der 18 U.S.C. §
1513(a )(1)(B) beca u se t h er e wa s n o eviden ce t h a t t h e
vict im s cooper a t ed wit h t h e gover n m en t . Th er efor e, Mr .
St or m a n d Ms. Cr ou se pr ovided in effect ive a ssist a n ce of
cou n sel wh en t h ey fa iled t o m a ke t h a t a r gum en t . [R. 844
a t 4.] Mr . Slon e, h owever , ca n n ot sh ow t h a t t h e Cou r t
la cked su bject m a t t er ju r isdict ion . An d, cer t a in ly, h e
ca n n ot sh ow t h a t h is cou n sel wa s con st it u t ion a lly
deficien t for n ot pu r su in g su ch a n a r gu m en t .
In deed, Mr . Slon e h a s fa iled t o iden t ify a n y ca se la w
wh ich su ppor t s h is posit ion —t h a t ju r isdict ion pr em ised
on § 1513 n ecessa r ily r equ ir es t h e vict im s t o be

44a

in for m a n t s. Nor does feder a l su bject m a t t er ju r isdict ion
r equ ir e t h a t Mr . Slon e believe h is vict im s wer e
in for m a n t s. In st ea d, t h e st a t u s of t h e vict im s’ cooper a t ion
“goes on ly t o t h e m er it s of t h e ca se,” a n d “does n ot a ffect
t h e ju r isdict ion of t h e t r ia l cou r t t o det er m in e t h e ca se
pr esen t ed by t h e in dict m en t ." Un ited S tates v. Cotton ,
535 U.S. 625, 631 (2002) (in t er n a l cit a t ion s om it t ed); see
Un ited S tates
v. William s, 341 U.S. 58, 66 (1951) (“The cir cu m st a n ce
t h a t u lt im a t ely it is det er m in ed on a ppea l t h a t t h e
in dict m en t is defect ive does n ot a ffect t h e ju r isdict ion of
t h e t r ia l cou r t t o det er m in e t h e ca se pr esen t ed by t h e
in dict m en t .”); Un ited S tates v. Diaz, 52 F ed. App’x. 810,
811 (6t h Cir . 2002) (“Defect s in a n in dict m en t do n ot
depr ive a cou r t of it s power t o a dju dica t e a ca se.”) Mr .
Slon e’s t r ia l cou n sel r ea son a bly a scer t a in ed t h a t pu r su in g
a ju r isdict ion a l st r a t egy wa s “fr a u gh t wit h per il” a n d
a lm ost cer t a in t o fa il. [R. 810 a t 19.] As t h e pr osecu t ion
a pt ly poin t s ou t , “even if a n in dict m en t fa ils t o st a t e a n
offen se a ga in st t h e Un it ed St a t es, ju r isdict ion is n ot lost .”
[R. 845 a t 2]; see Cotton , 535 U.S. a t 630 (in dict m en t
defect s a r e n ot ju r isdict ion a l). Bu t , in a n y even t , a n
a cqu it t a l in feder a l cou r t —for la ck of ju r isdict ion —wou ld
h a ve “pa ve[d] t h e wa y for a dou ble-m u r der pr osecu t ion in
st a t e cou r t .” [R. 840 a t 23.]
Mr . Slon e cou n t er s t h a t Ken t u cky Revised St a t u t es
§§ 505.050 a n d 505.060 would pr eclu de a su bsequ en t
st a t e pr osecu t ion . [R. 840 a t 23] [cit in g D.E . a t 9.] H e is
wr on g. Neit h er
K.R.S. §§ 505.050 n or 505.060 would pr eclu de st a t e
m u r der ch a r ges.
Id . a t 24.
To t he con t r a r y, §
505.050(1)(a ) a llows for a su bsequ en t pr osecu t ion wh er e
“[e]a ch pr osecu t ion r equ ir es pr oof of a fa ct n ot r equ ir ed in
t h e ot h er pr osecu t ion .” K.R.S. § 505.050(1)(a ). Mr .
Slon e’s feder a l pr osecu t ion u n der § 1513(a )(1)(B) r equ ir ed
a pr oof of fa ct n ot r equ ir ed for a st a t e con vict ion . As

45a

J u dge In gr a m pu t it , “a st a t e m u r der ch a r ge wou ld n ot
r equ ir e t h e feder a l n exu s r equ ir ed by §
1513 (or § 1512 for t h a t m a t t er )”. [R. 840 a t 24.] Th e
Cou r t , t h er efor e, a gr ees wit h J u dge In gr a m t h a t “[s]u bject
m a t t er ju r isdict ion is a r ed h er r in g in t h is ca se.” [Id . a t
22.] In st ea d of open in g Mr . Sloa n t o a n ot h er ca pit a l
pu n ish m en t eligible pr osecu t ion , Mr . Slon e’s cou n sel
n egot ia t ed a per se len ien t plea dea l. [R. 635; R. 747-7 a t
28-29.] As a r esu lt , Mr . Slon e ca n n ot sh ow pr eju dice a n d
h is fir st object ion is OVERRU LED . B
Next , Mr . Slon e object s t o t h e Ma gist r a t e’s fin din g
t h a t t h e gover n m en t cou ld h a ve pr osecu t ed u n der eit h er
§§ 1513 or 1512. [R. 844 a t 5.] Specifica lly, Mr . Slon e
a r gu es t h a t t h e “gover n m en t ’s posit ion wa s t h a t of
r et a lia t ion on ly, n ot for r et a lia t ion an d / or pr even t ion ,”
r en der in g u n r ea son a ble h is t r ia l cou n sels’ fea r of a
su per sedin g in dict m en t . Id . a t 5-6. Th e t wopr on ged
S trick lan d st a n da r d st ill a pplies. 466 U.S. 668, 687
(1984); Pou gh , 442, F .3d a t 964.
Mr . Slon e’s cou n sel r ea son a bly eva lua t ed t h e r isk
“t h a t a gr a n d ju r y cou ld h a ve fou n d bot h t h a t Slon e killed
t h e vict im s a s r et a lia t ion for believed pa st cooper a t ion
an d in or der t o pr even t fu t u r e t est im on y.” [R. 840 a t 23]
[em ph a sis in or igin a l.]
Mr . Slon e’s t r ia l cou n sel
det er m in ed t h a t “if t h ey pr essed t h e issu e of Slon e’s
‘belief,’ t h en t h e gover n m en t cou ld r epla ce t h e [§ 1513]
ch a r ge wit h on e u n der § 1512, which ca r r ies t h e sa m e
h a r sh pen a lt ies.” Id . E ven wor se, t h e pr osecu t ion wou ld
t h en h a ve “a n oppor t u n it y t o a m en d or su per sede t h e
In dict m en t t o ad d a cou n t u n d er § 1512.” [R. 840 a t 19]
[em ph a sis a dded.]
Th e Secon d Cir cu it cor r ect ly n ot ed t h a t a sin gle
a ct ion ca n su ppor t a fin din g of
“r et a lia t ion for [eit h er ] pa st a ct ion s” or “t o pr even t fu t u r e
t est im on y.” Un ited S tates v. B row n , 937 F .2d 32, 37 (2n d
Cir . 1991). In B row n , t h e defen da n t wa s con vict ed u n der
§ 1513 for t h r ea t en in g t o r et a lia t e a ga inst h is gir lfr ien d
for cooper a t in g in a feder a l in vest iga t ion t a r get in g Br own .
Id . a t 33.
Br own a ppea led, a llegin g t h a t a “t a ped

46a

t eleph on e con ver sa t ion in wh ich h e t h r ea t en ed t o ‘er a se’
[h is gir lfr ien d], est a blish es a t m ost a n in t en t t o in flu en ce
fu t u r e t est im on y, bu t n ot a n in t en t t o r et a lia t e for pa st
in for m a t ion pr offer ed.” Id . Th e Secon d Cir cu it disa gr eed,
h oldin g t h e ju r y’s fin din g wa s r ea son a ble a n d con sist en t
wit h t h e la w beca u se su ch “a t h r ea t m a y be con st r u ed t o
in t en d bot h r et a lia t ion a n d in t im ida t ion .” Id . a t 37.
H er e, t h e Cou r t is con fiden t t h a t t h e fa ct s cou ld
a llow a r ea son a ble jur y t o fin d t ha t Mr . Slon e con spir ed t o
kill in r et a lia t ion for pa st gover n m en t cooper a t ion or t o
pr even t fu t u r e cooper a t ion . Like t h e t h r ea t in B row n , Mr .
Slon e’s pa r t icipa t ion in t h e m u r der con spir a cy cou ld “be
con st r u ed t o in t en d bot h r et a lia t ion a n d in t im ida t ion .”
937 F .2d a t 33, 37. To be su r e, t h e plea a gr eem en t ’s
“fa ct u a l a dm ission s m a ke it clea r t ha t t h e gover n m en t ’s
posit ion wa s t h a t of r et a lia t ion only.” [R. 844 a t 6.] Th a t
posit ion , h owever , r esu lt ed fr om t h e n egot ia t ion s wh ich
led t o t h e plea dea l—n ot beca u se it wa s fa ct u a lly
im possible t o in dict Mr . Slon e u n der § 1512. [R.
845 a t 2.]
Mr . Slon e’s a t t or n eys a dvised h im pr u den t ly, a s
Mr . Slon e h a d n ot h in g t o ga in fr om “pr ess[in g] t h e issu e of
[h is] ‘belief.’” [R. 840 a t 23.] Wit h ou t a n y a u t h or it y t o
su ppor t h is t h eor y t o t h e con t r a r y, Mr . Slon e ca n n ot
defea t t h e st r on g pr esu m pt ion —a n d ot h er eviden ce
sh owin g—t h a t
his
t r ia l
cou n sel sa t isfied
t h eir
con st it u t ion a l obliga t ion s. S trick lan d , 466 U.S. a t 688
(cit in g M ich el v. L ou isian a, 350 U.S. 91 (1955)).
Nor ca n Mr . Slon e sh ow pr eju dice. Id . a t 687. As
n ot ed befor e, h a d Mr . Slon e’s cou n sel “pr essed t h e issu e of
[h is] belief,” h e m a y h a ve been lia ble un der § 1512 in
a ddit ion t o § 1513. [R. 840 a t 23.] On t h e ot h er h a n d,
defea t in g t h e feder a l in dict m en t wou ld only h a ve “pa ve[d]
t h e wa y for a dou ble-m u r der pr osecu t ion in st a t e cou r t .”
Id . Un der t h e best -ca se scen a r io, t h e Un it ed St a t es would
h a ve a m en ded t h e in dict m en t t o br in g § 1512 ch a r ges,
“w h ich carr[y] th e sam e h arsh pen alties.” Id . [em ph a sis
a dded.] In st ea d, h is cou n sel n egot ia t ed a “per se len ien t ”

47a

dea l wit h dou ble m ur der ch a r ges pen din g.
secon d object ion is OVERRU LED . C

Mr . Slon e’s

Next , Mr . Slon e object s t o t h e Recom m en ded
Disposit ion beca u se J u dge In gr a m det er m in ed t h a t h is
plea wa s va lid. [R. 844 a t 9.] Mr . Slone cla im s t h a t ,
“Given h is a ge, m edica l con dit ion , a n d t h e a bolish m en t of
t h e possibilit y of pa r ole in t h e feder a l syst e m , it wa s
pa t en t ly u n r ea son a ble for [h is] t r ia l cou n sel n ot t o pu r su e
ever y con ceiva ble defen se.” Id . Th e Cou r t disa gr ees.
F ir st , t h e plea n egot ia t ed by Mr . Slon e’s t r ia l
cou n sel wa s r ea son a ble in ligh t of r isks a ssocia t ed wit h
ot h er defen se st r a t egies—st r a t egies which t h is Cou r t
dispen sed wit h a bove. Mr . Slon e wa s a wa r e of h is a ge,
h ea lt h , a n d pa r ole ineligibilit y wh en h e a ccept ed h is dea l;
su ch post h oc a r gu m en t s a r e m er it less. H e h a s, t h er efor e,
fa iled t o dem on st r a t e t h e fir st pr on g of S trick lan d v.
Wash in gton , wh ich r equ ir es a defen da n t t o pr ove both
deficien t per for m a n ce a n d pr eju dice t o a sser t su ccessfu lly
a n in effect ive a ssist a n ce of cou n sel cla im . 466 U.S. 668,
687 (1984) (em ph a sis a dded); Pou gh , 442, F .3d a t 964.
Du r in g r ea r r a ign m ent , J u dge Th a pa r en su r ed Mr .
Slon e u n der st ood h is r igh t s, a n d con fir m ed t h a t h is plea
wa s en t er ed in t o kn owin gly a n d willingly. [R. 840 a t 13];
see R am os v.
R ogers, 170 F .3d 560, 563 (6t h Cir . 1990) (“[W]h er e t h e
cou r t h a s scr u pu lou sly followed [Ru le
11] pr ocedu r e, t h e defen da n t is bou n d by h is st a t em en t s
in r espon se t o t h a t cou r t 's in qu ir y.”)
Mr . Slon e’s
a sser t ion s t h a t h is cou n sel m isled h im a t t h is cr it ica l
ph a se a r e in con sist en t wit h t h e fa ct s a n d h is own swor n
t est im on y t o t h e con t r a r y. [R. 840 a t 11] [cit in g D.E . 782
a t 13-14, 18, 22-23, 26, 31-32 (“[T]h ese a llega t ion s
con t r a dict Slon e’s st a t em en t s a t h is plea colloquy. At t ha t
h ea r in g, Slon e st a t ed u n der oa t h t h a t h e wa s offer ed n o
pr om ises beyon d t h e t er m s of t h e plea a gr eem en t a n d t h a t
h e u n der st ood h is a gr eed sen t en ce a n d h is wa iver of h is
a ppella t e a n d colla t er a l a t t a ck r igh t s.”)] Tellingly, Mr .
Slon e con t r a dict ed h im self yet a ga in a t t h e eviden t ia r y

48a

h ea r in g h eld t o r esolve t h is m a t t er . [R. 824 a t 43, 67 -68]
[r et r a ct in g h is wr it t en a llega t ion t h a t Mr . St or m
per su a ded h im t o lie a t r ea r r a ign m en t ]; [R. 837 a t 4 -5; R.
825 a t 38-39] [cla im in g in n ocen ce despit e gu ilt y plea
a lr ea dy en t er ed in t o].
St a n din g by t h em selves, Mr .
Slon e’s in con sist en t st a t em en t s u n der m in e a n y pu r por t ed
Ru le 11 deficien cy. H is t h ir d object ion is
OVERRU LED .
D
Mr . Slon e h a s n ot object ed t o eit h er of J u dge
In gr a m ’s fin din gs a s t o t h e t h ir d a n d fou r t h In effect ive
Assist a n ce of Cou n sel cla im s, r ega r din g cou n sels’ wa iver
of Mr . Slon e’s speedy t r ia l r igh t s a nd P r esen t en ce
In vest iga t ion Repor t , r espect ively. Accor din gly, t h e Cou r t
is n ot r equir ed t o r eview t h ose issu es d e n ovo or u n der
a n y ot h er st a n da r d.
T h om as, 474 U.S. a t 150.
Non et h eless, h a vin g con sider ed t h e r ecor d, in clu din g t he
plea din gs, r eleva n t ca se a n d st a t u t or y la w , a s well a s
a pplica ble pr ocedu r a l r u les, t h e Cou r t a gr ees wit h J u dge
In gr a m t h a t Mr . Slon e’s t r ia l cou n sel did n ot er r in
wa ivin g h is speedy t r ia l r igh t s or P r esen t en ce
In vest iga t ion Repor t .
Th e Cou r t h er eby a dopt s t h e
Recom m en ded Disposit ion ’s fin din gs a s t o cla im s t h r ee
a n d fou r a n d r eject s Mr . Slon e’s cla im s of deficien t
cou n sel.
III
Aft er r eviewin g d e n ovo t h e en t ir e r ecor d, a s well a s
t h e r eleva n t ca se la w a n d st a t u t or y a u t h or it y, t h e Cou r t
a gr ees wit h J u dge In gr a m ’s t h or ou gh a n a lysis of Mr .
Slon e’s cla im s. Th e Cou r t a lso den ies a cer t ifica t e of
a ppea la bilit y pu r su a n t t o 28 U.S.C. § 2253(c) a s t o ea ch
issu e a sser t ed. Un der Ru le 11 of t h e F eder a l Ru les
Gover n in g § 2255 P r oceedin gs, t h e “dist r ict cou r t m u st
issu e or den y a cer t ifica t e of a ppea la bilit y wh en it en t er s a
fin a l or der a dver se t o t h e a pplica n t . . . .” Ru les
Gover n in g Sect ion 2255 P r oceedin gs, Ru le 11.
A

49a

cer t ifica t e of a ppea la bilit y m a y issu e “on ly if t h e a pplica n t
h a s m a de a su bst a n t ia l sh owin g of t he den ia l of a
con st it u t ion a l r igh t .” 28 U.S.C. § 2253(c)(2). As set for t h
by t h e Un it ed St a t es Su pr em e Cou r t , t h is st a n da r d
r equ ir es t h e pet it ioner t o “dem on st r a t e t h a t r ea son a ble
ju r ist s wou ld fin d t he dist r ict cou r t ’s a ssessm en t of t h e
con st it u t ion a l cla im s deba t a ble or wr on g.” See S lack v.
M cDan iel, 529
U.S. 473, 484; see also M iller-E l v. Cock rell, 537 U.S. 322,
336 (2003). Un der t h is st a n da r d, t h e
Cou r t believes t h a t t h is or der , wh ich a dopt s a n d
in cor por a t es by r efer en ce t h e Ma gist r a t e J u dge’s
Recom m en da t ion , is n ot su fficien t ly deba t a ble t o issu e a
cer t ifica t e of a ppea la bilit y.
Accor din gly, a n d t h e Cou r t bein g ot h er wise
su fficien t ly a dvised, it is h er eby ORD ERED a s follows:
1. Defen da n t /Mova n t Eu gen e Slon e’s Object ion s t o
t h e Recom m en ded Disposit ion
[R. 844] a r e OVERRU LED ;
2.
Th e Ma gist r a t e J u dge’s Recom m en ded
Disposit ion [R. 840] is AD OP TED a s a n d
for t h e Opin ion of t h is Cou r t ;
3.
Th e Defen da n t ’s Mot ion t o Va ca t e [R. 747] is
D IS MIS S ED WITH
P REJ U D ICE ;
4.
A Cer t ifica t e of Appea la bilit y is D EN IED a s
t o a ll issu es r a ised by t h e Defen da n t ; a n d
5.
J U D GMEN T in fa vor of t h e Un it ed St a t es
will be en t er ed con t em por a n eou sly h er ewit h . Th is
the
13t h da y of Au gu st , 2019.

50a

51a

UNITE D STATE S COURT OF AP P E ALS
F OR TH E SIXTH CIRCUIT

No. 19-5975

E UGE NE SLONE ,
P et it ion er -Appella n t
v.
UNITE D STATE S OF AME RICA,
Respon den t -Appellee

ORDE R

E u gen e Slon e, a feder a l pr ison er pr oceedin g
t h r ou gh cou n sel, a ppea ls a dist r ict cou r t ’s ju dgm en t
den yin g h is 28 U.S.C. § 2255 m ot ion t o va ca t e, set
a side, or cor r ect h is sen t en ce. H e h a s a pplied for a
cer t ifica t e

of

a ppea la bilit y

(“COA”).

The

gover n m en t h a s filed a r espon se.
In 2012, a gr a n d jur y ch a r ged Slon e wit h
con spir in g t o dist r ibut e oxycodon e a n d wit h killing

52a

t wo people in r et a lia t ion for pr ovidin g in for m a t ion
to a

officer

r ela t ing t o t he

com m ission of a feder a l offen se.

S ee 21 U.S.C. §

846;

la w en for cem en t

18

U.S.C.

§

1513(a )(1)(B).

Aft er

the

gover n m en t in for m ed Slon e’s a t t or n eys t h a t t he
vict im s h a d n ot

in fa ct

cooper a t ed wit h

la w

en for cem en t a n d t h a t t h e pr osecu t ion wou ld pr oceed
u n der t h e t h eor y of m ist a ken belief, Slone’s cou n sel
con sider ed r a isin g a su bject m a t t er jur isdict ion
defen se eit h er befor e t r ia l or in a m ot ion pu r su a n t
t o F eder a l Ru le of Cr im in a l P r ocedu r e 29 a ft er t r ia l,
bu t con clu ded t h a t t h e defen se cou ld pu t Slon e a t
r isk of fu r t h er pr osecu t ion a n d a m a n da t or y life
sen t en ce in feder a l cou r t or a dea t h sen t en ce in
st a t e cou r t .
Ult im a t ely, Slon e en t er ed in t o a bin din g
a gr eem en t wit h a sent en ce of 300 m on t h s in pr ison .
H e a dm it t ed t h a t he “believed t h a t som eon e h a d
pr ovided in for m a t ion t o feder a l a gen t s r ega r din g h is
oxycodon e dist r ibu t ion a ct ivit ies,” t h a t h e h a d pa id
som eon e t o kill t h e su spect ed in for m a n t s, a n d t h a t

53a

h e wa s pr esen t wh en t h e in dividu a ls wer e sh ot t o
dea t h a n d t h eir vehicle wa s sen t on fire.
wa ived

h is

righ t

to

a ppea l

h is

gu ilt y

Slon e
plea ,

con vict ion s, a n d sen t en ce, bu t h e r eser ved t h e r igh t
t o r a ise cla im s of in effect ive a ssist a n ce of cou n sel on
colla t er a l r eview.
No pr esen t en ce r epor t wa s pr epa r ed.

At

sen t en cin g, t h e dist r ict cou r t im posed t h e a gr eed
pr ison t er m of 300 m on t h s a n d a life t er m of
su per vised r elea se. Slon e did n ot a ppea l.
In h is pr o se m ot ion t o va ca t e, Slon e a sser t ed
t h a t t r ia l cou n sel r en der ed in effect ive a ssist a n ce by:
(1) fa ilin g t o ch a llenge t h e dist r ict cou r t ’s su bject
m a t t er ju r isdict ion over t h e m u r der ch a r ges on t h e
gr ou n d t h a t t h e gover n m en t did n ot pr ove t h a t
eit h er vict im a ct u a lly h a d pr ovided or pla n n ed t o
pr ovide in for m a t ion t o a la w en for cem en t officer ; (2)
m islea din g h im a bou t t h e plea n egot ia t ion s a n d
a gr eem en t , wh ich r en der ed h is plea in va lid; (3)

54a

wa ivin g his r igh t t o a speedy t r ia l; a n d (4) wa iving
h is r igh t t o a pr esen t en ce r epor t .
A m a gist r a t e ju dge a ppoin t ed cou n sel, con du ct ed
a n eviden t ia r y h ea r in g, a n d r ecom m en ded den yin g
the

§ 2255

m ot ion

beca u se

Slon e’s

cla im

of

in effect ive a ssist a n ce of cou n sel fa iled for t h e
r ea son s t h a t follow.

F ir st , Slon e did n ot su ffer

pr eju dice fr om cou n sel’s fa ilu r e t o ch a llen ge t h e
cou r t ’s su bject m a t t er ju r isdict ion beca u se: la ck of
pr oof of t h e pu r por t ed elem en t of a ct u a l cooper a t ion
wa s

n ot

a

ju r isdict ion a l

m a t t er

bu t

in st ea d

con cer n ed t h e su fficien cy of t h e eviden ce; n o ca se
h eld t h a t a ct u a l cooper a t ion wa s r equ ir ed; a n d
fa ilu r e on a Ru le 29 ju r isdict ion a l ch a llen ge a ft er
t r ia l m ea n t a m a n da t or y life sen t en ce for Slon e.
Alt er n a t ively, su ccess on a ju r isdict ion a l ch a llen ge
pu t Slon e a t t h e r isk of fu r t h er pr osecu t ion a n d a
m or e sever e sen t en ce.
Secon d, t h e m a gist ra t e ju dge r ea son ed t h a t
Slon e’s ch a llen ge t o t h e va lidit y of h is plea fa iled
beca u se h is t est im ony a t t h e eviden t ia r y h ea r in g

55a

wa s n ot cr edible a n d wa s con t r a dict ed by cou n sel’s
t est im on y.

Th ir d, no viola t ion of Slon e’s speedy

t r ia l r igh t s occu r r ed beca u se t h e lon g dela y bet ween
t h e in dict m en t a n d sen t en cin g wa s n ecessa r y du e t o
t h e com plexit y of t he ca se a n d did n ot pr eju dice
Slon e. La st , Slon e did n ot su ffer pr eju dice fr om t he
la ck of a pr esen t en ce r epor t . Over Slon e’s object ion s
a n d u pon de n ovo r eview, t h e dist r ict cou r t a dopt ed
t h e m a gist r a t e ju dge’s r ecom m en ded disposit ion a n d
den ied t h e § 2255 m ot ion .

Wit h r espect t o t he

ju r isdict ion a l issu e, t h e dist r ict cou r t r eit er a t ed t h a t
t h e st a t u s of t h e vict im s’ cooper a t ion con cer n ed t h e
m er it s

of

the

ca se

r a t h er

than

the

cou r t ’s

ju r isdict ion , t h a t Slon e h a d n ot iden t ified ca sela w
r equ ir in g a ct u a l cooper a t ion , a n d t h a t t r ia l cou n sel
r ea son a bly con clu ded t h a t a ju r isdict ion a l st r a t egy
wa s r isky a n d likely t o fa il. Th e cou r t declin ed t o
issu e a COA.
In h is COA a pplica t ion , Slon e r ea sser t s t h a t
h is t r ia l a t t or n eys r en der ed in effect ive a ssist a n ce by

56a

fa ilin g t o ch a llen ge t h e dist r ict cou r t ’s su bject
m a t t er ju r isdict ion a n d t h a t t h ey wer e m ist a ken a s
t o t h e via bilit y of a ju r isdict ion a l defen se a n d t h e
pot en t ia l for fu r t h er pr osecu t ion .
An in dividu a l seekin g a COA is r equ ir ed t o
m a ke a su bst a n t ia l sh owin g of t h e den ia l of a
feder a l con st it u t ion a l r igh t .

S ee 28 U.S.C. §

2253(c)(2). “A pet it ion er sa t isfies t h is st a n da r d by
dem on st r a t in g t h a t ju r ist s of r ea son cou ld disa gr ee
wit h

the

dist r ict

cou r t ’s

r esolu t ion

of

h is

con st it u t ion a l cla im s or t h a t ju r ist s cou ld con clu de
t h e issu es pr esen t ed a r e a dequa t e t o deser ve
en cou r a gem en t t o pr oceed fu r t h er .”

M iller-E l v.

Cock rell, 537 U.S. 322, 327 (2003).
J u r ist s of r ea son wou ld a gr ee t h a t Slon e’s t r ia l
cou n sel did n ot r en der in effect ive a ssist a n ce by
fa ilin g t o ch a llenge t h e dist r ict cou r t ’s su bject
m a t t er ju r isdict ion . S ee S trick lan d v. Wash in gton ,
466 U.S. 668, 687 (1984). An a r gu m en t con t est in g a
pu r por t ed elem en t of t h e offen se, su ch a s a ct u a l

57a

cooper a t ion , does n ot ch a llen ge su bject m a t t er
ju r isdict ion , bu t t h e su fficien cy of t h e eviden ce. S ee,
e.g., Un ited S tates v. M artin , 526 F .3d 926, 933-34
(6t h Cir . 2008); Un ited S tates v. B ah h u r, 200 F .3d
917, 922-23 (6t h Cir . 2000); see also Un ited S tates v.
Cotton , 535 U.S. 625, 630 (2002). Cou n sel ca n n ot be
deem ed in effect ive for fa ilin g t o r a ise a fr ivolou s
a r gu m en t .

S ee S u tton v. B ell, 645 F .3d 752, 755

(6t h Cir . 2011).
Addit ion a lly, Slon e fa ils t o dem on st r a t e t h a t
ca sela w su ppor t s h is a r gu m en t t h a t t h e st a t u t e of
con vict ion r equ ir es pr oof of a ct u a l cooper a t ion . He
r elies on a n ext r a -cir cu it ca se t h a t wa s r ever sed by
t h e Su pr em e Cou r t a n d in volved a differ en t st a t u t e.
S ee Od om v. Un ited S tates, 116 F .2d 996 (5t h Cir .),
rev’d , 313 U.S. 544 (1941). In ligh t of t h e a bsen ce of
ca sela w dir ect ly su ppor t in g a n a r gu m en t t h a t pr oof
of a ct u a l cooper a t ion wa s r equ ir ed, t r ia l cou n sel
m a de a r ea son a ble st r a t egic decision t o a dvise Slone
t o plea d guilt y a s ch a r ged a n d a void t h e r isk of a

58a

h igh er sen t en ce. S ee S trick lan d , 466 U.S. a t 69091.
Th e cou r t declin es t o con sider Slon e’s ot h er
cla im s of in effect ive a ssist a n ce of t r ia l cou n sel. H e
did n ot r ea sser t t h ese cla im s in h is COA a pplica t ion
a n d t h u s h a s for feit ed t h em . S ee J ack son v. Un ited
S tates, 45 F . App’x 382, 385 (6t h Cir . 2002) (per
cu r ia m ); E lzy v. Un ited S tates, 205 F .3d 882, 886
(6t h Cir . 2000).
Accor din gly, t h e cou r t D EN IES Slon e’s COA a pplica t ion .
E NTE RE D BY ORDE R OF TH E COURT

Debor a h S. H u n t , Cler k

